<html>
<title> - A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S AIR TRAFFIC CONTROLLER HIRING, STAFFING, AND TRAINING PLANS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










     A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S AIR TRAFFIC 
            CONTROLLER HIRING, STAFFING, AND TRAINING PLANS

=======================================================================

                                (114-45)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-499 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  











                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              ANDRE CARSON, Indiana
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
REID J. RIBBLE, Wisconsin            DINA TITUS, Nevada
MARK MEADOWS, North Carolina         SEAN PATRICK MALONEY, New York
RODNEY DAVIS, Illinois               CHERI BUSTOS, Illinois
MARK SANFORD, South Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
RYAN A. COSTELLO, Pennsylvania       RICHARD M. NOLAN, Minnesota
MIMI WALTERS, California             JOHN GARAMENDI, California
BARBARA COMSTOCK, Virginia           PETER A. DeFAZIO, Oregon (Ex 
CARLOS CURBELO, Florida              Officio)
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)





























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY
                                Panel 1

Hon. Randy Hultgren, a Representative in Congress from the State 
  of Illinois....................................................     6

                                Panel 2

Teri L. Bristol, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration, accompanied by 
  Rickie Cannon, Deputy Assistant Administrator for Human 
  Resource Management, Federal Aviation Administration...........     9
Matthew E. Hampton, Assistant Inspector General for Aviation 
  Audits, Office of Inspector General, U.S. Department of 
  Transportation.................................................     9
Paul M. Rinaldi, President, National Air Traffic Controllers 
  Association....................................................     9
J. Randolph ``Randy'' Babbitt, Senior Vice President of Labor 
  Relations, Southwest Airlines..................................     9

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Randy Hultgren..............................................    44
Teri L. Bristol and Rickie Cannon, joint statement...............    49
Matthew E. Hampton...............................................    65
Paul M. Rinaldi..................................................    80
J. Randolph ``Randy'' Babbitt....................................    91

                       SUBMISSIONS FOR THE RECORD

Teri L. Bristol, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration, responses to 
  questions for the record from Hon. Don Young, a Representative 
  in Congress from the State of Alaska...........................    60
Federal Aviation Administration, responses to questions for the 
  record from Hon. Richard M. Nolan, a Representative in Congress 
  from the State of Minnesota....................................    63

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
     A REVIEW OF THE FEDERAL AVIATION ADMINISTRATION'S AIR TRAFFIC 
            CONTROLLER HIRING, STAFFING, AND TRAINING PLANS

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. I would like to thank you all for being here.
    Before we proceed, I would like to welcome the Colgan 
family members who have been very faithful about coming to our 
hearings. And I assure you that it will be a top committee 
priority for safety and I remember the tragedy and the loss 
that you all suffered. And if any of you think that this 
hearing date was arbitrary, it is not. So please help me in 
recognizing Ranking Member Rick Larsen's birthday.
    [Laughter.]
    Mr. LoBiondo. Rick, wish you happy birthday.
    [Applause.]
    Mr. LoBiondo. I know you couldn't want to celebrate in any 
other way than having a hearing.
    Mr. Larsen. You know, for all my life I have thought if 
only my birthday we could have a hearing on air traffic control 
staffing.
    [Laughter.]
    Mr. Larsen. And this is a dream come true.
    Mr. LoBiondo. Dreams come true, OK. So again, thank you all 
very much.
    At a subcommittee roundtable in December the DOT 
[Department of Transportation] inspector general and the 
National Air Traffic Controllers Association highlighted a 
number of challenges the FAA [Federal Aviation Administration] 
continues to face in ensuring that our Nation's busiest air 
traffic control facilities are staffed with the most 
experienced and highly trained air traffic controllers, or CPCs 
[certified professional controllers].
    Like most people, when I board a major airliner I assume 
the pilots are highly experienced and well trained, and that 
the flight, at least under today's air traffic control system, 
is going to be guided to its destination by a hard-working team 
of dedicated FAA air traffic controllers. Like with airline 
pilots, we assume FAA's 14,000-plus controller workforce are 
highly trained and experienced.
    However, in 2012 and in 2016 the DOT IG [inspector general] 
found that a high percentage of the controllers at our busiest 
ATC [air traffic control] facilities, including terminal radar 
approach control facilities in Atlanta, Chicago, Dallas/Fort 
Worth, Houston, and New York are so-called developmental 
controllers, or trainees, who cannot manage traffic without the 
direct supervision of a fully certified controller or a 
facility manager.
    In addition, of the 14,000-plus controller workforce, just 
over 10,600 controllers are fully certified, which is a 27-year 
low.
    We are also concerned about the safety implications of the 
rising workload for CPCs, many of whom are subject to mandatory 
6-day workweeks and high rates of overtime. The drop in CPCs 
can be attributed to several factors.
    Over the past several years the FAA has struggled to 
replace the thousands of controllers who were hired during the 
1981 Professional Air Traffic Controllers Organization strike, 
most of whom have reached the agency's mandatory retirement age 
of 56. The FAA's hiring efforts were severely hampered in 2013, 
when the agency stopped training new hires at its training 
academy in Oklahoma City, due to sequestration.
    In 2014, the FAA abruptly changed its controller hiring 
process, and made even further poorly executed changes in 2015. 
Consequently, the FAA has missed its controller hiring targets 
for 6 consecutive years. To its credit, in the past year the 
FAA has made some progress on the hiring front, with the agency 
stating it will reach its hiring goal this year.
    Some of the internal bottlenecks that were highlighted at 
the December roundtable include prolonged security and medical 
reviews, and they have been addressed. The FAA has also worked 
with NATCA [National Air Traffic Controllers Association] on a 
revised policy to facilitate the transfer of fully certified 
controllers to the busiest ATC facilities.
    That being said, we have a long way to go. In addition to 
seeing little improvement in the development of fully certified 
controllers, we are concerned that the agency's revamped 
controller hiring process is not putting forward the highest 
quality controller candidates, as evidenced by a 20-percent 
drop in the FAA Academy pass rate since the hiring process 
would change, with academy failures a whopping 142 percent 
above the fiscal year 2015 forecasted level.
    Yesterday the parents and instructors of one of our 
Nation's many fine Collegiate Training Initiative, CTI, 
institutions, met with me to share their frustrations with the 
FAA's revamped controller hiring process. It is a story that I 
have heard many times over in the past 2 years, but one that is 
no less saddening. Their experiences led me to conclude that 
the current controller hiring process is underserving our 
Nation and the flying public.
    Nearly 3,000 highly qualified CTI graduates who want to 
serve as air traffic controllers were left in the cold when the 
FAA changes were made in the hiring process, with many more 
abandoning their hopes because they have aged out. And they 
were left in the cold basically with no notice of any kind that 
the changes were being made after expending, in some cases, 
huge sums of money.
    And yet we are holding a hearing on inadequate controller 
staffing levels. I hope that our witnesses can explain why the 
FAA eliminated the CTI program preference. If further progress 
is not made in the areas of controller hiring, placement, and 
training, our Nation's ATC system may not be able to handle 
rising airline operations and passenger demand, which is 
expected to reach 1 billion passengers by the end of the next 
decade. Should the FAA not hire, train, and retain a sufficient 
number of controllers, the FAA may be forced to reduce airline 
operations to the detriment of passengers, shippers, and 
overall economy to ensure safety is not compromised.
    We saw this scenario played out in April 2013, when the FAA 
curtailed ATC operations across the country due to 
sequestration-related controller furloughs, causing a week of 
historic airline delays and cancellations. So, I look forward 
to hearing from our witnesses on ways we can work together to 
address these longstanding problems.
    Before I recognize my colleague, Mr. Larsen, for his 
comments I would like to ask unanimous consent that all Members 
may have 5 legislative days to revise and extend their remarks 
and include extraneous material for the record of this hearing.
    [No response.]
    Mr. LoBiondo. Without objection, so ordered. Now I would 
like to yield to Mr. Larsen for any comments he may make.
    Mr. Larsen. Thank you, Mr. Chairman, and thanks for calling 
this hearing today to explore air traffic control staffing. 
Among other things, I hope this hearing will help inform and 
encourage progress on a timely FAA reauthorization bill. As we 
all know, the current extension expires July 15th.
    But today we hear from witnesses with several perspectives 
regarding air traffic control staffing. And I welcome any 
discussion of what we need to keep our air space the safest and 
most efficient in the world.
    The Office of the Inspector General, from whom we have a 
representative testifying today, provides a good starting point 
for our discussion. The OIG reported earlier this year that FAA 
continues to face challenges ensuring enough fully trained 
controllers at critical facilities. But before we get too far 
ahead of ourselves, we should consider the bigger picture.
    There is no evidence of safety lapses associated with the 
staffing issues. We are living in the safest period of aviation 
history. Every day U.S. airlines safely transport about 2 
million passengers around the country. At the same time, there 
is no evidence of decreased efficiency due to staffing. In 
fact, the Department of Transportation reported on Monday that 
airlines' on-time performance improved by 3 percentage points 
in April. That is the good news.
    The healthy airline industry is critical for our 
international competitiveness. The airlines are doing well 
financially, the system is safe, and, by all accounts, the 
system is operating efficiently.
    But I make these observations not to deny the need for 
continued oversight and vigilance on this subcommittee's part 
regarding FAA's hiring, training, and staffing of air traffic 
controllers. Rather, I just think it is critical to keep this 
hearing in proper perspective.
    That said, I am concerned about understaffing in critical 
facilities. Potential choke points in the air traffic control 
system, such as when passengers first feel the ripple effects 
of a line of thunderstorms over Nebraska, facilities like 
terminal radar approach control facilities in New York, 
Atlanta, Dallas/Fort Worth, Chicago all need more controllers.
    On average, only about three-quarters of the controllers in 
these facilities are fully certified controllers. The rest are 
trainees. And many of the fully certified controllers are 
eligible for retirement. It is, therefore, critical that the 
FAA demonstrate two things: it is hiring enough controllers 
ahead of projected retirements, and it has the ability to shift 
controllers from other facilities to these critical facilities.
    And while there is more work to be done, I am encouraged on 
some progress. The FAA is on pace to exceed its goal of hiring 
1,619 controllers this year, and the agency has over 2,400 
controllers available in Canada pools. The FAA, in 
collaboration with the National Air Traffic Controllers 
Association, or NATCA, has streamlined the process for 
transferring controllers between facilities more quickly, 
reducing the leg time, and certifying ready and able 
controllers in hard-to-staff facilities. But the FAA can make 
further improvements, and they should not hesitate to hire more 
controllers when staffing needs require it.
    The FAA Academy, where inexperienced controllers have to 
train before being placed in a facility, has the capacity to 
matriculate only 1,998 controllers per year. And before 
controllers can attend, the FAA has to medically certify them 
and conduct a background check, and the FAA has the capacity to 
process about 300 per month.
    This hearing is an important exercise of this 
subcommittee's oversight of the safety and efficiency of the 
air traffic control system. By all of the objective measures, 
facility-specific staffing shortages have not compromised 
safety or capacity today. But I do look forward to hearing from 
our witnesses on what we need to do to ensure that that remains 
the case.
    So again, thank you, Mr. Chairman, for holding this 
hearing, and I yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen. I would like to 
welcome and recognize the chairman of the full committee, Mr. 
Shuster.
    Mr. Shuster. Thank you, Chairman LoBiondo. And I want to 
start by welcoming a group of young people from my district. 
They are participating in the Pennsylvania Electric Co-op Youth 
Program. They are all the ones standing. They have young legs, 
so I think they can stand for a little bit.
    Welcome to Washington. It is great that you are here, and 
seeing what is going on in your Federal Government, your 
Nation's capital.
    Also I would like to say happy birthday to the other man 
from Everett, Mr. Larsen. For those of you from my district, he 
is from Everett, Washington. And as you know, I am from 
Everett, Pennsylvania. So we share that.
    So happy birthday, Rick.
    And also I want to say I am glad to see Mr. Hultgren here. 
He has been a real advocate for changing the system, for 
getting something done to make sure we can hire the controllers 
we need. So thanks for being here today.
    Aviation safety is a top priority of this committee. And, 
in fact, across all of the modes it is a top priority for us. 
And the U.S. has one of the safest aviation systems in the 
world, and that is largely due to the dedicated and 
professional work of our air traffic controllers and the FAA 
safety personnel.
    However, it is clear from numerous reports the FAA has not 
hired and trained enough fully certified controllers at our 
busiest ATC facilities to make up for the thousands of 
controllers hired during the 1981 strike who are reaching 
mandatory retirement. It is not clear why the FAA has dropped 
the ball. Many of the problems can be attributed to poor 
management of sequestration, as well as the timing and poor 
execution of significant--and questionable--changes to the 
controller hiring process.
    This is another example of the FAA's longstanding inability 
to adequately manage its controller workforce. And that is a 
big reason, I believe one of the biggest reasons, why the ATC 
reform that I have proposed and we have passed out of this 
committee we should take up. And the FAA has a history, whether 
it is a hiring, not hiring of personnel, or being able to 
deploy a modern air traffic control system again, we ought to 
continue to work towards breaking out the ATC from the FAA, 
allowing it to operate as an entity that can hire, maintain, 
and deploy a modern and safe aviation system. So I will 
continue to push for that.
    Again, under the status quo the passengers will suffer from 
the FAA's forced--to reduce air traffic flows across the 
country. And just imagine, we see the news reports today of the 
lines that the TSA [Transportation Security Administration] 
have. And that is causing some delays, but it's causing 
passengers, thousands and thousands of passengers, to miss 
their flights or miss their connections. Imagine if we don't 
have the flow of the air traffic control, the lines will be not 
in the airport, the lines will be on the tarmacs. Planes will 
be waiting with hundreds of passengers, waiting in line to get 
to the next destination, missing connections, missing--flights 
being canceled.
    So this is a serious problem that we have to address. And 
again, I appreciate Chairman LoBiondo holding this hearing, and 
I look forward to hearing from our witnesses today.
    Thank you, I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster. And we are pleased to 
welcome and recognize Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. You know, our air 
traffic controllers are doing a phenomenal job. Some of them 
are being forced into mandatory overtime, 6-day weeks. That is 
not sustainable, and it certainly doesn't help recruitment into 
some of the busiest areas of the country, particularly New York 
and others. We have to look at new ways to induce, you know, 
fully qualified controllers to move there. And, you know, we 
also have to facilitate the hiring of qualified people and 
their full certification.
    You know, there is legislation, and I have spoken to the 
chairman about this--I am trying to remember the number--
introduced by Mr. Curbelo and Mr. Maloney, H.R. 5292, which 
would help in the hiring process, particularly targeting 
veterans and otherwise experienced controllers to move on and 
get to work.
    So I would hope that we would take up that bill. I think it 
is a noncontroversial bill. I would suggest, since we are doing 
a lot of pretend legislation around here on the floor, maybe we 
should do some real legislation, and put that bill through 
before Congress embarks on yet another one of its long breaks 
in this year, which is more breaks than work.
    The issue is critical. You know, many people have been 
talking about this for years. We have seen this shortage, the 
aging of the workforce, coming. And it is past time to do 
something about it. But despite all that, to hear air traffic 
controllers are doing such an extraordinary job that, you know, 
the number of air traffic control-related flight delays 
actually decreased by 17.5 percent in the last 2 years, I think 
that is an extraordinary testimony to them and the work they 
are doing. But I think it is not sustainable without an 
adequate workforce, so I am very worried that this will, you 
know, hurt our retention, if we don't bring in some more help.
    The chairman also mentioned TSA. I have a bill on that. I 
recommend it to members of the committee. Every American is 
taxed every time they buy a ticket. And in its infinite wisdom, 
the Congress put through one of those really bad yearend budget 
deals written by Speaker Ryan and Patty Murray--so bipartisan 
problem--which decided to divert $1 billion, $1.2 billion a 
year, from security fees into the ether--so-called deficit 
reduction, or some other part of Government.
    You know, to get enough TSA agents out there, according to 
the head of the union, would cost about one-third of the money 
that is being diverted. It is not right to tax people for 
something and then take the money away. So I would also 
recommend that. That does relate to our system and its 
efficiency. Unfortunately, it is no longer under the 
jurisdiction of this committee. But I would recommend it to my 
colleagues, if they are concerned about that.
    With that, I look forward to hearing from the witnesses.
    Mr. LoBiondo. Thank you, Mr. DeFazio. Now we are going to 
turn to our first panel with just one witness, and it is 
Congressman Randy Hultgren. And as Chairman Shuster said, Randy 
has been very passionate about this issue, and we welcome 
hearing from you, Randy.

TESTIMONY OF HON. RANDY HULTGREN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Hultgren. Chairman LoBiondo, Chairman Shuster, thank 
you so much for your leadership on this. Ranking Member Larsen, 
happy birthday. Thank you for letting me be here this morning 
and to make some remarks.
    This is an issue that I have carefully scrutinized over the 
last 3 years, and it is very important to me, my constituents, 
and air traffic controllers nationwide. As a former member of 
this Aviation Subcommittee--and I also represent several 
hundred air traffic controllers in the 14th District of 
Illinois, which is the largest number in Illinois--I have met 
with many of them, and many others who aspire to become ATCs.
    These dedicated students have put in long hours with our 
Nation's military and reputable and accredited institutions to 
gain the skills and education to be entrusted with the public 
safety which is bestowed on our air traffic controllers.
    As a weekly commuter from O'Hare to Reagan, I personally am 
invested in making sure that our skies are safe, as are all of 
us. We are facing critically low staffing levels of air traffic 
controllers within our towers. Only 30 percent of trainees at 
the Chicago TRACON [Terminal Radar Approach Control facilities] 
reach full certification. Ensuring we have a sufficient number 
of air traffic controllers in our towers is paramount to secure 
air travel. Insufficient air traffic controllers means cutting 
back travel and hurting our economy.
    No controllers means no flights, and that is why I was 
surprised and confused with the FAA when they changed their 
longstanding hiring procedures without warning in 2014, and 
launched an unnecessary social science experiment. Students, 
teachers, and administrators of the Collegiate Training 
Initiative, or CTI, were also blindsided by the FAA's decision, 
and told me of its negative effects.
    For decades, the CTI training program established by the 
FAA itself was the recognized and trusted pipeline for highly 
qualified candidates and military veterans. Most disturbingly, 
I believe the new hiring standards jeopardize air travel safety 
by diverting the hiring process around highly qualified air 
traffic controller candidates and veterans in an attempt to 
elevate off-the-street candidates. Why the FAA did this remains 
unclear.
    What is clear is that the FAA has been less than 
transparent and open. A 6-month investigation revealed the 
adverse effects of these modifications, not only on aspiring 
air traffic controllers, but on the legitimacy of the hiring 
process itself. The investigation also revealed that FAA or 
aviation-related employees may have assisted in giving 
potential recruits special access to answers on key admissions 
tests to help them gain jobs with the FAA.
    Yet the FAA has refused to respond to audio, video, and 
witness accounts of misconduct. They conducted a self-audit of 
the allegation and cleared themselves of any wrongdoing. This 
is no way to run an agency that is responsible for the well-
being of thousands of lives every day.
    In regards to the biographical assessment, a new and 
confusing psychological test, the FAA has repeatedly been 
opaque and nonresponsive. That is why, since 2014, I have 
called for a congressional hearing on these issues, and I am so 
grateful to Chairman LoBiondo for inviting me to speak here 
today.
    We still have more questions than answers. Today we need 
answers. We need answers about the alleged cheating. 
Administrator Michael Huerta has stated that he tasked two 
internal officers within the FAA to conduct thorough 
investigations of the alleged cheating. Not surprisingly, the 
internal investigations failed to uncover what was demonstrated 
clearly on audio recordings. Yet, at the same time, the FAA has 
never publicly denied the cheating allegations. So, which is 
it?
    Further, this past March the FAA filed a motion in Federal 
court admitting that the agency is unable to recover missing 
and corrupted emails at the center of the alleged cheating. Do 
these emails demonstrate whether or not the FAA knew someone on 
the inside was helping people cheat? When will Administrator 
Huerta come forward with the results of the investigation?
    Further, we need answers about the discredited biographical 
assessment psychological test. Who wrote the BioQ and who 
validated it, if anyone? How did some candidates fail the 
biographical questionnaire in 2014 and then pass it in 2015? 
Why were these candidates allowed to sit for the BioQ in an 
unsecured location without showing proof of ID?
    As a result of the FAA's changes, many clearly qualified 
CTI graduates and military veterans were disqualified by a test 
they don't understand and cannot improve upon, even after years 
of education and experience. Many have now aged out of the 
process, forever losing their chance to join the ranks of air 
traffic controllers. Where is the relief for these dedicated 
individuals? Americans deserve an answer.
    So where do we go from here? I introduced H.R. 1964, the 
Air Traffic Controllers Hiring Act of 2015, to reverse the 
effects of the FAA's policies and restore safety and confidence 
to air travel.
    I would like to thank Mr. Rinaldi on behalf of NATCA for 
their support and collaboration throughout the years on my 
bill. I also want to thank Chairman LoBiondo for his co-
sponsorship of this legislation.
    My bill restores preferred hiring status for CTI graduates, 
qualified veterans, and experienced controllers, and it 
provides relief for those aged out of the process. It 
eliminates the use of the biographical assessment.
    My colleague, Congressman Curbelo, has introduced similar 
legislation this Congress, H.R. 5292, the Air Traffic 
Controller Hiring Improvement Act. I thank Mr. Curbelo for our 
shared interest on this issue, and I agree with the vast 
majority of his legislation. His legislation creates two 
separate hiring pools, one consisting of veterans and CTI 
graduates and another of all interested U.S. citizens. The 
hires from these two pools may not exceed a 10-percent 
difference.
    However, I have concerns that, should the FAA hire from 
these pools equally, it would disadvantage our CTI graduates 
and military veterans. I have worked tirelessly with NATCA to 
instead create a three-pool system of CTI graduates, veterans, 
and off-the-street hires, which would alleviate this problem 
and maintain a speedy hiring process.
    I welcome continued conversations with NATCA and understand 
the politics and rationale for their two-pool approach. This 
isn't just about securing a fair job application process or the 
status quo, this is about Americans feeling and being safe and 
secure when flying. This is about transparency and openness 
from an agency which is accountable to the American people and 
their Representatives.
    I am grateful for all of you for your attention and work on 
this issue, and I look forward to reaching solutions that 
provide fairness and safety and security for all.
    Thank you, Chairman, and I yield back.
    Mr. LoBiondo. Thank you, Randy, very much. Now we are going 
to move to the second panel, so we will give the staff a second 
to set up.
    And while they are doing that I will introduce the second 
panel, which includes Ms. Teri Bristol, chief operating officer 
of the Air Traffic Organization at FAA, who is accompanied by 
Mr. Rickie Cannon, deputy assistant administrator for human 
resource management at the FAA.
    We are also joined by Mr. Matt Hampton, who we are pleased 
to welcome back again, assistant inspector general for aviation 
audits, United States Department of Transportation.
    Mr. Paul Rinaldi, president of the National Air Traffic 
Controllers Association.
    And Mr. Randy Babbitt, senior vice president of labor 
relations for Southwest Airlines.
    We thank you all for being here. And Ms. Bristol, if you 
are ready, you are now recognized for your statement. 
Microphone, please.
    Ms. Bristol. OK, OK.

  TESTIMONY OF TERI L. BRISTOL, CHIEF OPERATING OFFICER, AIR 
    TRAFFIC ORGANIZATION, FEDERAL AVIATION ADMINISTRATION, 
 ACCOMPANIED BY RICKIE CANNON, DEPUTY ASSISTANT ADMINISTRATOR 
FOR HUMAN RESOURCE MANAGEMENT, FEDERAL AVIATION ADMINISTRATION; 
 MATTHEW E. HAMPTON, ASSISTANT INSPECTOR GENERAL FOR AVIATION 
    AUDITS, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF 
   TRANSPORTATION; PAUL M. RINALDI, PRESIDENT, NATIONAL AIR 
  TRAFFIC CONTROLLERS ASSOCIATION; AND J. RANDOLPH ``RANDY'' 
 BABBITT, SENIOR VICE PRESIDENT OF LABOR RELATIONS, SOUTHWEST 
                            AIRLINES

    Ms. Bristol. Chairman, Ranking Member, and members of the 
subcommittee, thank you for the opportunity to appear before 
you today to discuss our air traffic controller workforce.
    Our controllers are proud professionals who are entrusted 
with our mission to run the safest, most efficient airspace 
system in the world. The National Airspace System is an 
extremely complex operation. We need to continually meet both 
the ongoing and the emerging needs of the aviation community. 
Therefore, we must remain committed to hiring, training, and 
supporting the best controller workforce in the world.
    Today I would like to discuss four key areas of the FAA's 
controller staffing process: hiring, training, placement, and 
our collaboration with the National Air Traffic Controllers 
Association, or NATCA.
    Let me start by discussing hiring. The agency has created 
two hiring tracks. One track is focused on reaching candidates 
with no previous air traffic experience. Candidates must meet 
the position's minimum qualifications and pass validated 
occupational tests, which include the biographical assessment 
and the Air Traffic Selection and Training test. The second 
track is a specialized air traffic control experience track. It 
focuses on reaching candidates with operational experience, 
such as military veterans with at least 1 year of air traffic 
control experience.
    With these changes in our hiring process, the ATO [Air 
Traffic Organization] is on track not only to meet, but to 
exceed the fiscal year 2016 hiring goal. This hiring process 
better addresses the agency's current hiring needs. It also 
ensures equitable treatment in the broadest pool of qualified 
candidates. We will continue to monitor and refine the process 
as necessary to ensure the best possible individuals are 
selected to maintain the safety and efficiency of the NAS 
[National Airspace System].
    Our robust training program at the FAA Academy and in our 
facilities provides a strong foundation for our new 
controllers. We have made continual improvements in our 
training curriculum in the last 5 years. The FAA Administrator 
recently convened an Aviation Rulemaking Advisory Committee 
with 11 experts from industry and the academic community. They 
will work with the FAA to evaluate innovative approaches for 
future hiring and training of air traffic controllers.
    As with our hiring processes, the FAA continually strives 
to improve the training we provide our controllers. The Air 
Traffic Organization supports the air traffic controller basic 
qualification training working group under the Aviation 
Rulemaking Advisory Committee structure. We are also 
establishing a Center of Excellence for Technical Training and 
Human Performance. This will enable us to explore opportunities 
for cost share research and grants that could be used to help 
shape the future of air traffic controller training.
    Along with hiring and training, we are also focused on 
placing new controllers in the right facilities. The FAA uses a 
priority placement tool to forecast and prioritize controller 
staffing requirements. It captures the latest priority ranking 
of all 315 facilities and it is sorted in order of greatest 
staffing need. We place trainees where we need them.
    Collaboration is paramount to our success. The best way to 
meet staffing challenges is to collaborate with our labor 
partners. This means building relationships, establishing 
trust, and working together to make better decisions. Our 
collaboration with NATCA supports our ability to place 
controllers where we need them. We are jointly defining our 
priorities and working to improve the process by which 
controllers request reassignments to other facilities. And, in 
addition, we have established a collaborative resource working 
group with NATCA that is reviewing the staffing models that we 
have in place.
    In conclusion, I believe that the FAA has a solid and 
comprehensive plan in place to address controller hiring, 
training, placement, and we collaborate with NATCA to ensure 
success. We have made tremendous progress in recent months, and 
I believe we are on the right track. While we are always 
looking for ways to improve, the air traffic system in the 
United States is extremely safe and efficient, and it remains 
the envy of the world.
    We look forward to working with our Government and industry 
partners to consider even better ways to meet air traffic needs 
of the future. This concludes my statement, and I will be happy 
to answer your questions. Thank you.
    Mr. LoBiondo. Thank you, Ms. Bristol.
    And now we will turn to Mr. Hampton for your statement. 
Thank you for being here.
    Mr. Hampton. Chairman Shuster, Chairman LoBiondo, and 
Ranking Member Larsen, thank you for inviting me to testify 
today on the key challenges facing FAA's air traffic controller 
workforce. My remarks today are based on a report we published 
earlier this year, and our ongoing work for the committee.
    Today the total number of fully certified controllers 
stands at about 10,600. This is at the very bottom edge of 
FAA's overall controller staffing range at the national level. 
Furthermore, a look at individual facilities highlights a 
number of pressing challenges that demand FAA's urgent 
attention.
    Our analysis of FAA's most critical air traffic control 
facilities, the most complex and busiest ones in the National 
Airspace System, shows that over half of the 23 facilities have 
certified controller staffing levels well below minimal 
requirements. These include New York, Atlanta, Dallas, and 
Chicago TRACONs. These facilities are also stressed by large 
percentages of controllers in training and controllers eligible 
to retire.
    We found that these problems are the result of several 
factors, including the lack of precision with FAA's model for 
estimating staffing requirements for facilities that manage 
high-altitude operations; not fully utilizing systems to 
maximize controller scheduling; a lack of accurate and complete 
data on planned retirements and training times; and poor 
communication between headquarters and the field.
    In terms of hiring, FAA introduced several changes to its 
controller hiring process over 2 years ago, in February 2014, 
based on internal and external reviews. These changes included 
standardizing the minimum qualifications for all applicants; 
centralizing the processes in the Office of Human Resources; 
and introducing a new screening mechanism known as the 
biographical assessment.
    However, the agency lacked an effective implementation 
strategy for the new policies. And as the committee is well 
aware, stakeholders have expressed concerns that FAA 
implemented the new process only a little over a month after 
announcing the changes, even though the changes were 
significant.
    In addition, FAA did not establish an effective tracking 
system to monitor candidates as they move through the pipeline. 
It is too soon to assess the overall impact of FAA's new hiring 
process and whether it will lead to successful outcomes in 
getting new controllers certified faster at facilities, given 
the length of time it takes to train new controllers. Our work 
shows that FAA continues to face challenges in meeting its 
hiring goals.
    Further, the agency lacks metrics on the time it should 
take an applicant to advance through the hiring process. In 
addition, many of the new hires selected through the new 
process have not yet completed required onboarding processes, 
contributing to delays. We expect to complete our report later 
this year with our recommendations for corrective action.
    There are also several issues that will materially affect 
the controller workforce in the near term that require 
attention.
    First, implementing scheduling tools to help facility 
managers better manage resources, particularly at large, 
complex facilities. We recommended and FAA agreed to adopt a 
tool that is widely used in other countries. This will help 
significantly.
    Second, accelerating efforts to develop procedures, 
training, and tools to help controllers safely manage unmanned 
aircraft systems in the same airspace as other aircraft. FAA is 
taking steps to address our recommendations.
    Finally, assessing the workload and productivity impact of 
new NextGen technologies like the $1.6 billion DataComm effort 
that will allow controllers to communicate with pilots via text 
messaging. This is important because studies suggest that this 
technology could allow controllers to handle 30 percent more 
aircraft.
    In summary, controller training, hiring, and staffing 
issues are longstanding concerns and require sustained FAA 
management attention and action.
    Mr. Chairman, this concludes my statement, and I would be 
happy to answer any questions you or the members of the 
subcommittee may have. Thank you.
    Mr. LoBiondo. Thank you very much, Mr. Hampton.
    Mr. Rinaldi, you are recognized.
    Mr. Rinaldi. Good morning, Chairman LoBiondo. Happy 
birthday, Ranking Member Larsen. Chairman Shuster, Ranking 
Member DeFazio, and members of the Aviation Subcommittee, thank 
you for the opportunity to testify about one of the most 
critical problems facing our National Airspace System.
    We all have a stake in our National Airspace System. It's 
an economic engine contributing $1.5 trillion annually to our 
gross domestic product and providing over 12 million American 
jobs. Currently, we run the largest, safest, most efficient, 
most complex, most diverse airspace system in the world. Our 
system is unique, unequaled, and unrivaled by any other 
country. This is due in large part to the impeccable work of 
the men and women I represent who run this system.
    The United States airspace system is considered the gold 
standard in the world aviation community. And yet the air 
traffic controller staffing crisis puts this status at risk.
    In 2015 this committee held a roundtable meeting to discuss 
air traffic control staffing. That event served as the catalyst 
between NATCA and the FAA to collaborate in developing 
solutions on many aspects of this staffing crisis. But the 
changes we have made are small steps in the right direction. 
Air traffic control staffing has been a concern for many years, 
but it has now reached a crisis level.
    We are at a 27-year low of fully certified air traffic 
controllers. Controller staffing has fallen nearly 10 percent 
since 2011. And the FAA has missed its hiring goal in each of 
the last 7 years. With one-third of the current workforce 
eligible to retire, the bureaucratic structure is failing us.
    Stop-and-go funding has contributed to staffing problems. 
In 2013, due to sequestration, the FAA froze hiring, shut down 
the FAA Academy, and since then it has not been able to catch 
up. After sequestration of 2013 cuts, the FAA expunged 
approximately 3,000 well-qualified candidates in order to 
institute its biographical questionnaire, or what we call BQ, 
which is fundamentally flawed.
    NATCA worked with the FAA to validate the second BQ with a 
large group of controller workforce before it used it in its 
2015 vacancy announcement. Then, for some reason, in July of 
2015 the FAA HR department terminated the Retired Military 
Controller program, which we know as RMC. Piling on, FAA HR 
decided that the Air Traffic Selection and Training test, or 
ATSAT, could not be used again.
    NATCA has worked hard and encouraged our members to help 
validate a new exam. This exam is a full-day test. And with our 
controller staffing crisis, this has not been an easy task. The 
validation is not complete yet, and the FAA will not post an 
all-sources vacancy announcement until it is. These 
bureaucratic, self-inflicted wounds have significantly delayed 
the hiring of new employees.
    Since the roundtable discussion in December, NATCA and the 
FAA have collaborated to make some progress. But the job is far 
from complete. NATCA believes that the FAA must take a 
holistic, collaborative approach to resolve our staffing 
issues. We must be very careful not to do anything that would 
make the current situation worse, or delay hiring or slow 
training or reduce these staffing targets. NATCA doesn't just 
come with a concern; we believe that everybody in this room can 
work together and get a solution.
    Congress needs to pass an FAA reauthorization bill that 
provides the necessary stable, predictable funding to operate a 
fully staffed National Airspace System. Sequestration must be 
fixed, or the FAA should be exempted. Otherwise, we will see 
another hiring freeze, reducing staffing, see furloughs, 
delays, and reduced capacity.
    NATCA supports the passage of H.R. 5292, which would 
streamline the hiring process by ensuring a path of experienced 
controllers will be hired quickly with fewer bureaucratic 
hurdles, and allow military veterans and CTI graduates to be 
hired without being subject to the bio data questionnaire--
biographical questionnaire.
    The FAA needs to hire as many experienced controllers that 
are qualified. In addition, it should be hiring 2,000 
inexperienced employees per year to maximize the throughput 
through the FAA Academy. Our controllers are dedicated, highly 
skilled professionals, the best in the world, who are forced to 
shoulder the burden of chronically understaffed facilities. 
They are doing an amazing job every day under this staffing 
crisis, but it is time for some relief.
    No one wants interruptions in service, delays, decreased 
capacity, least of all our air traffic controllers.
    I want to thank you for calling this hearing and continuing 
to keep our staffing crisis front and center. We must remain 
vigilant and continue to move the ball forward. Otherwise, we 
will be hard pressed to maintain the current capacity, let 
alone expand and modernize our system.
    I thank you for the opportunity to testify today, and I 
look forward to answering any of your questions.
    Mr. LoBiondo. Thank you, Mr. Rinaldi.
    Now we will turn to Mr. Babbitt for your statement. You are 
recognized.
    Mr. Babbitt. Well, thank you. And Chairman LoBiondo, 
Chairman Shuster, Mr. Larsen, and Mr. DeFazio, members of the 
Aviation Subcommittee, thank you for the opportunity to appear 
before the subcommittee today to discuss the issues that are 
related to air traffic controller hiring, staffing, and 
training.
    I come before this body today actually wearing a number of 
hats that I have collected over the years, almost five decades 
in aviation. Those hats are current airline executive, a former 
Administrator of the FAA, a former president of an airline 
union, and a former commercial airline pilot. And because of my 
former lives, if you would, in aviation, I think I offer a 
unique perspective on a number of these issues.
    But first and foremost, I am here today as a senior 
executive from Southwest Airlines. Southwest is, as you may 
know, the Nation's largest domestic carrier, in terms of 
carrying passengers in the country: roughly 150 million 
passengers, customers, annually, with a combination of low 
fares, no annoying fees, and friendly customer service that is 
developed by outstanding people and a safe and reliable 
operation.
    We operate at Southwest a fleet of over 700 Boeing 737 
aircraft operating nearly 4,000 flights a day to over 87 U.S. 
destinations and 11 international destinations. And every 
single one of those flights is in controlled airspace. So, to 
say the least, we are dependent upon and highly appreciative of 
a robust, highly skilled air traffic controller workforce.
    In my prior roles as the FAA Administrator and as a 
commercial airline pilot, I was proud to interact daily with 
the professional men and women of the U.S. air traffic 
controller workforce. Their dedication to aviation safety, 
operational efficiency, and professional integrity is truly 
remarkable. And it leads to the fact that we all must have 
confidence in this ATC system. And during my 50 years of 
flying, I never have lost that confidence, and it is in large 
measure due to the skill and professionalism of the Nation's 
air traffic controllers.
    Now, with that said, my confidence in the overall ATC 
system today is a little bit shaky. I have no concern--let me 
underscore, no concern--from a safety perspective. The safety 
of the ATC system is never in doubt. But I do question the 
reliability of the overall ATC system from an operational and 
customer service perspective.
    The U.S. aviation system is both labor and capital 
intensive. And like other modes of transportation and other 
sectors in the aviation industry, prolonged underfunding of 
staffing needs and system improvements will eventually take its 
toll, as it has with the DC Metro and the TSA's security 
apparatus, as two examples.
    All of this produces concern about whether the current ATC 
system can be sustained in its present form. Eventually, 
without major structural changes and greater funding and 
staffing certainty, serious inconvenience to aircraft operators 
and ultimately to our customers and your constituents will 
result.
    Specifically, in delivering to the beneficial NextGen 
technologies more quickly, and in order to avoid the crisis 
confronting TSA and DC Metro, the Federal Government needs to 
do more to address the supply of certified controllers, as well 
as providing the required training to fully utilize the NextGen 
capabilities that are available today. Principally, 
performance-based navigation and other capabilities that are 
expected to be rolled out in the near future. For example, data 
communications in the en route environment.
    Aviation traffic is forecast to grow steadily. And 
certainly, having our certified controller staffing levels 
continue to decline with no relief in sight is not going to be 
helpful. This seems to be particularly problematic at critical 
ATC facilities which require the most experienced controllers 
to manage the complex operations skillfully and efficiently. 
And as the Nation's largest domestic airline, it concerns us 
and it challenges our promise to our customers that we will 
provide friendly, reliable, and on-time service.
    Due to our concerns with the future capabilities of the ATC 
system and the current pace of progress with regard to the 
NextGen program, Southwest has joined most of the airline 
community and several aviation unions, including NATCA, to 
support significant structural, financing, procurement reforms, 
all contained within the House version of the FAA 
Reauthorization Act.
    The U.S. ATC system is a 24/7 operation. And, as Paul noted 
earlier, it contributes $1.5 trillion to the Nation's gross 
domestic product, and generates more than 12 million jobs. But 
we believe that such an important economic engine will struggle 
to meet future demand under the current system challenged by 
the fits and starts of the annual appropriations process and 
the threat of sequestration or Government shutdowns. So we 
applaud the committee in looking for these important issues to 
be resolved, and at least recognizing that the status quo is 
not acceptable.
    So, hopefully, a bipartisan solution to these issues can be 
achieved sooner, rather than later.
    So, on behalf of Southwest Airlines, I thank you for this 
opportunity to testify, and I will be happy to answer any 
questions later. Thank you.
    Mr. LoBiondo. Mr. Babbitt, thank you very much. We will now 
turn to Mr. Shuster for questions.
    Mr. Shuster. Thank you, Chairman LoBiondo. And let me start 
off by saying, first of all, I know, Mr. Babbitt, in your long 
distinguished career you were on the 1993 commission that 
recommended the type of ATC reform that we have proposed here 
and passed out of committee. So I appreciate you being here 
today, your long service, and your wisdom in trying to figure 
out how we change this system and right this ship so we can 
have an even safer, more efficient air traffic control system 
and airspace in America.
    Mr. Babbitt. Thank you.
    Mr. Shuster. So far this morning we have learned that the 
FAA has missed its own controller hiring targets in each of the 
last 6 years, and that the percentage of controller trainees 
being used are at near record levels in some of our busiest air 
traffic controlled facilities.
    In an effort to right this ship, Ms. Bristol, you said you 
have changed--revamped your controller hiring process. In fact, 
twice in less than 3 years this has happened. I, for one, am 
very skeptical and doubtful that, with a record of 6 years not 
being able to meet--I think the latest numbers I got is you are 
behind in hiring the type of people that we need to get in the 
facilities.
    So I would like the witnesses--at least Mr. Hampton, Mr. 
Rinaldi, and Mr. Babbitt, if you would, give the FAA, on a 
scale of an A to an F, their performance in hiring, placing, 
and training over the last 5 years.
    Mr. Hampton, are you willing to grade them?
    Mr. Hampton. That is a dangerous thing, to ask an IG to 
give a grade. But anyway, on this one, given the work we have 
done over the years on FAA's critical facilities, we would have 
to give them an incomplete. We think it is a longstanding issue 
that needs continued management attention. That is a stinging 
grade from an IG; I am sorry about that.
    Mr. Shuster. What did you say, the last thing?
    Mr. Hampton. It is an incomplete. It is a stinging grade.
    Mr. Shuster. It sounds like you are a politician.
    [Laughter.]
    Mr. Shuster. I would have expected you to, you know, come 
down hard one way or the other.
    Mr. Rinaldi?
    Mr. Rinaldi. I am going to go with the incomplete, also, if 
that is appropriate. You said A through F, but I will go with 
the incomplete, because, you know, the self-inflicted 
bureaucratic processes that they put in place, I still can't 
consciously figure out why they would decide to do such a 
thing. But at the end of the day they are trying to make 
changes.
    And this year we are--since the roundtable discussion, we 
are seeing some changes. But keep in mind--not that I would 
grade this great body--stop-and-go funding does impact it.
    Mr. Shuster. I would do that, and I would--being the 
politician here asking the questions, I would give Congress a 
D-minus on what we have done over the last 20 or 30 years on 
the funding level, the different pieces of legislation that we 
have passed, that we have not--with our oversight of the FAA, 
but--so I would give us a D-minus--maybe a D, since it is 
Larsen's birthday today, I will be a little bit easier.
    Mr. Babbitt? Now you are in the trickiest position of all, 
because you got to deal with the FAA every single day. So----
    Mr. Babbitt. So I am going to default to the fail/pass 
voting method, and give them a passing grade. But as a good 
teacher, mentor might try to do, I say that with caveats. I 
think it is unfair sometimes to, in this situation, ask someone 
to perform without the adequate tools they need for the 
performance of what we have asked them to do.
    And again, the funding, the changing of any number of 
external circumstances for them, being forced to furlough, all 
of that is detracted from their grade, but not their fault. And 
so I guess I will default to the point of stabilizing the 
funding, having a clear path, and having the ability to put 
your hand up occasionally and say, ``Look, we need more money 
to do this. This is a critical piece, and we can't do it with 
the funding and the budgets you have set for us.'' And I think 
all of those would help them improve that grade and, you know, 
get into a good college.
    Mr. Shuster. OK, great. Ms. Bristol, I won't ask you to 
grade yourself, but again, why should we assume, after 6 years 
of failure, after the last 2, 3 years--changing the system 
twice, you know, what--tell us the metric we need to look for 
in the next couple of months, several months, to prove that you 
are moving forward in a positive way.
    Ms. Bristol. OK, thank you very much. So I think that the 
first metric to make is to make our hiring targets each year. 
We are on track to do that this year. We will probably exceed 
our goal, upwards----
    Mr. Shuster. When will that--when will we see that?
    Ms. Bristol. We have already met the goal, and we expect to 
exceed it by any number of applicants, probably in the high 
1600s, for this fiscal year.
    And I think that we have had some challenges over the 
years, and I think sequestration played a part in that, but I 
know that there have been a number of changes. And I think we 
are making progress. I think the changes that we have put into 
place, both process and tools, I think will continue to bear 
positive results as we move forward now and into the future.
    My organization, the Air Traffic Organization, is working 
very closely with other parts of the FAA, including my 
colleague, Mr. Rickie Cannon, who is our deputy assistant 
administrator for human resource management. Our folks are 
working very closely together. And hiring and training is one 
of our highest priorities in the agency.
    We are also working very closely with my colleague, Paul 
Rinaldi, and his team. We have put in place a number of changes 
in the way that we are working together on how we move people 
throughout the system, ensuring that we address the highest 
need facilities first and foremost, and really focus on putting 
our new hires in the lower level facilities.
    Mr. Shuster. OK. Well, know we are watching closely, and 
know that this problem has to be solved now, because the real 
damaging effects come down the road if it is not addressed----
    Ms. Bristol. Right.
    Mr. Shuster [continuing]. Today. So again, thank you for 
being here. Thank you all for being here.
    Ms. Bristol. Thank you.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Thanks. I will move on quickly to the 
controller issue, but I just want to correct the record. Mr. 
Babbitt, you can help with this. You served on the 1993 
commission, that is correct?
    Mr. Babbitt. Sorry?
    Mr. DeFazio. The 1993 commission, you served on it, looking 
at the--changing the ATO governance.
    Mr. Babbitt. I believe that was the 1992 commission.
    Mr. DeFazio. Yes, yes, you did, OK. Was the conclusion to 
go to a private corporation, or was the conclusion to establish 
an independent Government corporation?
    Mr. Babbitt. I will plead a fair amount of distance between 
1992 and----
    Mr. DeFazio. OK. Well, I have it here, and it actually--
although Ms. Robyn and others keep saying, ``We were there, 
this is what they wanted to do,'' it actually came to the 
conclusion it should be an independent Government corporation 
removed from the Federal budget process. Not a private, not-
for-profit corporation. Just wanted to correct the record on 
that----
    Mr. Babbitt. All the----
    Mr. DeFazio. Let's move on to air traffic controllers, 
thank you.
    Ms. Bristol, why was this BA [biographical assessment] 
created? My understanding is the ATSAT had been compromised, 
and that was part of the rationale for the BA.
    Ms. Bristol. You want to----
    Mr. DeFazio. Or Mr. Cannon?
    Mr. Cannon. Congressman DeFazio, I will attempt to answer 
your question.
    The biographical assessment was created to provide some 
initial screening as applicants matriculated through the 
process. When we decided to change the process----
    Mr. DeFazio. It is not because the ATSAT had been 
compromised?
    Mr. Cannon. Well, we can talk about the ATSAT a little 
later, but let me try to answer----
    Mr. DeFazio. Yes, OK. Well, here--all right, let me just 
get to my point.
    Mr. Cannon. OK.
    Mr. DeFazio. I met a person at the last NATCA event here on 
the Hill who went through the CTI, is working as a military 
controller, but can't come aboard with the FAA because she 
can't pass the BA and the BA seems to be designed to determine 
whether you have the temperament to be a controller or not. So 
if someone has gone to the school, successfully completed the 
school, and is working without reservation, without problems, 
as a military air traffic controller, is that test valid?
    Mr. Cannon. Yes, sir. The test is valid. Both versions of 
the biographical assessment----
    Mr. DeFazio. I thought that you had to go out--you hadn't 
validated the first one with the workforce, and then you redid 
the BA and it has been somewhat validated, but there are still 
questions in my mind about that validation.
    Mr. Cannon. No, sir.
    Mr. DeFazio. I mean, well, why would you then want to 
screen out a person who is fully qualified, working as an air 
traffic controller, trained? Why would we want to screen her 
out with a biographical assessment?
    Mr. Cannon. Well, I don't believe we want to screen----
    Mr. DeFazio. Yes, but I mean----
    Mr. Cannon [continuing]. Any particular individual.
    Mr. DeFazio [continuing]. There seems to be a problem. I 
mean what is the goal? I mean if the goal is to get people--you 
know, because it becomes more expensive as you go through the 
process. You have to apply the ATSAT. My understanding is it 
costs you $139 per ATSAT, compared to $45 for the SAT.
    So I am really kind of wondering about this whole process, 
the BA, the ATSAT, and whether we need two processes, or 
whether we should have one simplified process, which is, ``Do 
you have the skills necessary, yes or no,'' and we are going to 
give you an ATSAT, we are going to keep it secure, so it 
doesn't get compromised, in terms of answers. Maybe we can get 
Princeton to do it for us for $45 a person, as opposed to $139.
    I mean this whole process is aggravating. I mean I think we 
are screening out, potentially--at least one, and I am sure 
there is more than one--qualified people from becoming 
controllers. I mean you are totally confident in this process 
as the best way to go? BA and then the ATSAT?
    Mr. Cannon. Yes, sir, I am. And I think it is producing 
results. And Ms. Bristol just said, we will exceed our hiring 
target this year.
    Mr. DeFazio. OK, well----
    Mr. Cannon. And we have a good start----
    Mr. DeFazio. I have a question for Ms. Bristol. Why is the 
target less than 2,000? The academy has the capability of 
processing 2,000. Why--and we have a severe shortage in many of 
our critical centers, and it is going to take people 3 years to 
get there. Why are we hiring less than 2,000?
    Ms. Bristol. Right. So, as we stepped from 2015 to 2016, we 
transitioned to a new controller training contract. We wanted 
to ensure that we didn't have more trainees in the field than 
could go right into training. In other words, we track where 
individuals are and how many training resources are available 
to move those people through the----
    Mr. DeFazio. So you are saying that your target is because 
of restrictions in terms of supervision of entry-level 
controllers.
    Ms. Bristol. It was one consideration. As we move into next 
year, we are looking to bump that, and max out the academy, as 
well, in addition to bringing on previous-experience 
controllers over and above that number.
    Mr. DeFazio. Right. And the FAA has a target minimum 
headcount, which is set by some sort of mathematical algorithm 
by the finance people. Doesn't sound ideal to me, because the 
green eyeshades probably have something else in mind. And then 
we have the CRWG CPC working group, which came up with more 
robust levels.
    Ms. Bristol. So----
    Mr. DeFazio. So if we had a, actually, applied working 
group that drilled down into each center and came up with 
higher numbers, why do we even bother with the mathematical 
algorithm that popped out of the finance department with the 
target minimum headcount?
    Ms. Bristol. That would be the controller workforce plan. 
It is put out every year. It is a 10-year document. It is 
strategic, it is very high level.
    The ATO worked with NATCA, and that CRWG, which is a 
controller resource working group, it was ATO and NATCA----
    Mr. DeFazio. Right. So it was actually practitioners, you 
know, working with the bureaucrats to come up with real 
numbers, as opposed to numbers that were created by a 
mathematical algorithm.
    Ms. Bristol. It doesn't take into account everyone that is 
in a facility. What it does is average out the certified 
professional controllers, and we set targets on how we are 
going to staff to that level and move people through the system 
to--from our more healthy to less healthy facilities. But we 
have to account for the developmentals that are also in the 
building.
    So, in working together, I am very confident that is how we 
have a laser approach on who we are putting into which 
facilities.
    Mr. DeFazio. OK. Mr. Rinaldi, can you comment on this BA 
process? I mean when they did the control, how many--do you 
know how many controllers took the test and what their pass and 
fail rate was with the BA, actually working controllers?
    Mr. Rinaldi. Sure. I thank you, sir. When they did the 
first one in 2014, 28,511 applicants took the BQ; 2,407 passed. 
So, you know, roughly 10 percent passed.
    Then we found out later on that--and I am not a scientist, 
but all you have to do is read the first page about a 
biographical assessment. It says that the test must be 
validated with a large group of incumbents. And being the only 
person who represents a large group of air traffic controllers, 
it was never validated with us. So we asked the FAA, ``If you 
are going to do this again, you probably need to validate this 
test,'' and they did. We did it together, and validated it, and 
roughly 18,000 took it and roughly 5,000 passed the BQ, about 
28 percent. Again, I don't know much about the science, but I 
do know there are a lot of qualified people out there that are 
actually doing the job today that have not passed it.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman. I am 
over my time.
    Mr. LoBiondo. Just very briefly, I want to strongly 
associate with Mr. DeFazio's comments on the revised hiring 
process.
    And Ms. Bristol and Mr. Cannon, do you realize when we are 
talking about a military air traffic controller that can't be 
qualified for civilian air traffic control, and you are telling 
this committee and the rest of the world that you are 
justifying that your process is valid, and trying to make all 
of us understand how that is OK, how absurd and ridiculous it 
is to us, that somehow you don't kind of regroup and say, 
``Look, maybe we have got to relook at this, and if we have got 
military air traffic controllers that have gone through CTI, 
maybe we have done something wrong here''? So this--you are 
hurting yourself by doing this.
    Very briefly, we are going to go to Mr. Rokita, but Mr. 
Shuster asked to make a brief comment.
    Mr. Shuster. I also want to strongly associate myself with 
Mr. DeFazio, what he said. He has hit the nail right on the 
head. So I appreciate that.
    But I also want to make sure that the record reflects that 
in my ATC reform it accomplishes everything that we want--that 
he wants, I think, too--except for it is not in a failed--the 
history of America has been failed Government corporations. And 
it takes it out of that. And we have seen around the world that 
this system will work. So I just want to make sure that stands 
in the record, too. Thank you.
    Mr. LoBiondo. Mr. Rokita, you are recognized.
    Mr. Rokita. I thank the chairman. And Ms. Bristol, so the 
military training program doesn't suffice? Military controllers 
can't pass your processes and cannot work in the civil----
    Mr. Cannon. No, sir. We are hiring any number of former 
military controllers. In fact, our most recent track 2 
announcement, we did an all-sources announcement open and 
continuous back last December. Air Traffic Organization 
recently hired 260 and they are all veterans, all former 
military.
    Mr. Rokita. All right.
    Mr. Cannon. Controllers.
    Mr. Rokita. Well, why can't--why do they fail?
    Mr. Cannon. Sir, the biographical assessment, like any 
test, is basically--it predicts success at the academy, and CPC 
at first facility. It is not flawless, like all other tests. 
so----
    Mr. Rokita. So you agree to correct the flaws?
    Mr. Cannon. Well, what we have done is we have done--our 
consultants have done the validation work to ensure that the 
test is valid. That is legally an obligation we have as an 
agency, that any selection procedure or tool we use must be 
validated under the uniform guidelines----
    Mr. Rokita. Mr. Rinaldi--thank you--do you have a comment 
on this?
    Mr. Rinaldi. Just--Mr. Cannon said something about an open 
and continuous bid, and that is--that was closed in March. So 
if it is open and continuous, it would be open all the time, I 
would think. So it is not. It is actually closed. They have not 
issued another open continuous bid for experienced controllers 
or direct hires out of the military.
    The individual that Mr. DeFazio was speaking about is a 
actual CTI graduate, highly recommended from the school, and is 
working in one of our Federal contract towers, actually 
performing air traffic control, and is not able to pass the BQ, 
either.
    Mr. Rokita. Roger, thank you.
    Continuing on with the CTI schools, Mr. Cannon, can you 
explain why the FAA decided to use a BA, bachelor of arts, for 
general public candidates, including graduates of CTI schools? 
And second, can you explain why the FAA modified the BA so 
quickly?
    Mr. Cannon. Modified the BA?
    Mr. Rokita. Yes.
    Mr. Cannon. And why we use it? Again, we created and used 
the biographical assessment for the 2014 announcement because 
it is a good screen, and it is validated for success at the 
academy and success at CPC at first facility.
    We modified the biographical assessment in 2015 because 
between the 2014 and the 2015 announcement we had enough time 
to do a job task analysis to take a deeper look at the 
occupation to see if it had changed.
    Mr. Rokita. Why did you use the same contractor for the 
biographical analysis?
    Mr. Cannon. Why would we use the same contractor?
    Mr. Rokita. Yes, when the--that contractor failed the first 
time.
    Mr. Cannon. Well, I don't----
    Mr. Rokita. Failed to do the job correctly the first time.
    Mr. Cannon. Well, the contractor did not fail to do the job 
correctly the first time, sir.
    Mr. Rokita. Mr. Rinaldi, is that your opinion?
    Mr. Rinaldi. That is certainly not my opinion. The test was 
never validated with air traffic controllers. So it wasn't 
valid, and that is why it had such a horrible success rate.
    More importantly, they did have time. They had 3,000 
qualified CTI students on a list that they basically expunged. 
They could have hired them for that year and given us the 
opportunity to validate the test.
    My executive vice president brought this up to who was the 
head of HR who is no longer there at this time, and they 
basically put the hand up and said, ``We know exactly what we 
are doing, this science doesn't lie.'' It did lie. It was 
flawed.
    Mr. Rokita. Thank you very much for that testimony.
    Ms. Bristol, Purdue University in my district is one of the 
36 schools approved to participate in the Collegiate Training 
Initiative. When the hiring process was changed, CTI students 
no longer received a bonus on their application, whatever that 
looks like, for completing the program.
    Why do you think that is right, that is the right decision, 
not to give priority to these students who were specifically 
trained to do air traffic control at what--you know, unless you 
are a hard IU [Indiana University] fan, wouldn't agree that 
Purdue is not a good place to get that kind of work done, that 
kind of training done?
    Mr. Cannon. Sir, CTI students never got a bonus. What they 
had was a separate announcement in which they were placed in 
the inventory. The only thing we have done, if you really look 
at it closely, is we have taken them, and they are just 
competing in the pool with the rest of the U.S. citizens----
    Mr. Rokita. Well, there is a----
    Mr. Cannon [continuing]. And they are doing very, very 
well.
    Mr. Rokita. There is a shortage, sir. Why not--you have 
these people trained already. Why not get them to the front of 
the line and get them in a tower, or get them in a TRACON?
    Mr. Cannon. Sir----
    Mr. Rokita. I don't get it.
    Mr. Cannon. Sir, they are actually doing better. If you can 
indulge me just for a second, they are actually doing better 
than they ever have. Let me give you just a few examples.
    In fiscal year 2008 the FAA hired 2,196 controllers; 823 of 
those were CTI students. These numbers, by the way, are 
reported in the controller workforce plan. That is 37 percent. 
In fiscal year 2009 FAA hired 1,731 controllers, and only 335 
were CTI students, 19 percent.
    And then, in fiscal year 2010 and 2011, in the independent 
panel review report that was commissioned by Mr. Babbitt, and 
when he was the FAA Administrator, the FAA was roundly 
criticized because in fiscal year 2010 and 2011 out of 1,000 
controller selections only 33 percent were CTI students.
    Now, in fiscal year 2014, 47 percent of the 1,593 people 
selected were CTI grads or had some CTI education. And fiscal 
year 2015 that number ballooned to 50 percent. There were 1,452 
out of 2,895 people who referred. So that is a 50-percent 
growth doing nothing at all but putting this new process in 
place.
    Mr. Rokita. I thank the chairman for his time. I yield 
back. Apparently we don't need to have this hearing, Chairman.
    Mr. LoBiondo. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Been a lot of 
discussion about whether or not there are shortages or not or--
I think a couple things I want to make sure we focus on. 
Thirteen of twenty-three critical facilities were found by the 
IG to be below the facility's planning staffing range. And two 
of these facilities are Chicago TRACON and Chicago O'Hare 
Tower, which are below the minimum level for CPCs. So we are 
talking about some of the busiest terminal airspace in the 
entire world.
    Now, in the Chicago TRACON/Chicago Center O'Hare Tower, the 
percentage of retirement-eligible controllers ranged from 43 to 
50 percent. So, clearly, we see problems right now, and 
certainly issues in the future with having shortages. I have 
great concerns about what has been done with the changes to the 
system for hiring controllers. I know that I have one of the 
best CTI schools in the country in my district, Lewis 
University in Romeoville. Professor Bill Parrot is here today. 
We talked about this yesterday.
    I want to point out that there is a 2013 report by the FAA 
Civil Aerospace Medical Institute that said, ``Based on 
training performance, a preference for CTI graduates over 
general applications seems warranted.'' And another in 2014 
that said, ``Overall, larger proportions of CTI hires achieved 
professional controller status than the general public hires.''
    Now, I know that in--you know, hiring procedures were 
changed in 2013. There was an alarming increase in the number 
of academy failures in 2015. So it just seems common sense to 
me, as others have noted, that it is common sense to hire from 
CTI graduates and veterans first.
    So, Ms. Bristol, can you tell me how veterans and CTI 
graduates' performance and training compares with those from 
the general population?
    Ms. Bristol. Congressman, I don't have those statistics 
with me. I would have to provide those to you.
    Mr. Lipinski. OK. I would very much like to see that, 
because it seems like something we would want to know, 
especially when we see this increase in academy failures. And 
we want to know who is performing best, and really is 
succeeding in the process.
    Now, I want to associate myself with Mr. Hultgren's 
comments when he spoke before this panel. We need to figure 
this out. We cannot have--I understand that because of the 
current and coming potential shortages of air traffic 
controllers we don't want to slow the system down. But we have 
to get at how we do this best to keep our aviation safe. We 
need to get at a lot of those things Mr. Hultgren talked about. 
We need to get under--back--we need to understand the alleged 
cheating that went on to know what happened there.
    I think Mr. Hultgren's bill that I worked with him on, H.R. 
1964, is the best way to go about doing this. I am also a 
cosponsor of Mr. Curbelo's and Mr. Maloney's bill, although one 
of the reasons Mr. Hultgren laid out there I think his bill 
is--I prefer that bill. But we need to do a much better job 
here.
    One question I want to ask, and there is probably not any 
information on it. I am not sure if it is directly related to 
what we are talking about here. But, Ms. Bristol, around 
midnight on June 4th an incoming commercial flight was unable 
to reach air traffic controllers in Chicago Midway Tower. The 
flight diverted to Milwaukee, and two other incoming flights 
were directed to enter holding patterns until communications 
were reestablished.
    Now, during this time the crews remained in contact with 
TRACON in Elgin, so it wasn't a--you know, any direct safety 
issue. But I wanted to know if the FAA has determined the cause 
of this communications difficulty.
    Ms. Bristol. Yes. Thank you, Congressman. We are 
investigating that matter. We expect to wrap up that 
investigation in the next 2 to 3 days. And we will certainly 
circle back with your office to share that information.
    Mr. Lipinski. It is, obviously, very, very critical that we 
get to the bottom of this incident and also--but getting back, 
we need to make sure--I want to find the answer to the question 
about how the CTI and veterans perform. And with that I will 
yield back.
    Mr. LoBiondo. Thank you, Mr. Lipinski.
    Mr. Mica?
    Mr. Mica. Thank you, Mr. Chairman, and thank you for 
letting me go ahead. I do have another obligation shortly.
    We have been talking about training of air traffic 
controllers for as long as I have been here, and we set up a 
system that is flawed.
    Ms. Bristol, how many people do we have that have applied 
to be air traffic controllers? Don't we have a waiting list or 
something? Do you----
    Ms. Bristol. Do you want to----
    Mr. Mica. Can you answer it, Mr. Cannon?
    Mr. Cannon. Yes.
    Mr. Mica. How many?
    Mr. Cannon. How many people do we have----
    Mr. Mica. Well, we had a list to apply to get in. How many 
do we have on the list currently? Or--I know we had thousands 
at one point. Do we still have thousands?
    Mr. Cannon. Yes, right----
    Mr. Mica. We have thousands.
    Mr. Cannon. Yes. Right now, sir, we----
    Mr. Mica. What is the capacity to run through the school at 
Oklahoma?
    Ms. Bristol. 2,000.
    Mr. Mica. How many?
    Ms. Bristol. 2,000.
    Mr. Mica. Is that--and during what period of time?
    Ms. Bristol. That would be during the fiscal year we----
    Mr. Mica. One year you can do 2,000.
    Ms. Bristol. Plus we can also put experienced controllers 
directly into----
    Mr. Mica. And your----
    Ms. Bristol [continuing]. The field to train them----
    Mr. Mica. And your washout rate, I understand, is still 
pretty high from those that come out of Oklahoma. Is that 
correct?
    Ms. Bristol. It----
    Mr. Mica. Who knows the washout rate?
    Ms. Bristol. In the en route option the failure rate at the 
academy is around 30 percent.
    Mr. Mica. About 30 percent. So one-third waste. We have 
dozens of colleges, university--I don't have it in my 
district--Embry-Riddle, who can teach these courses. Why can't 
FAA set the standards for colleges and universities?
    Right now aren't we paying--we were paying them money to go 
to this school, and this big mechanism and a 30-percent washout 
rate. Are we still paying them to go to school?
    Ms. Bristol. Yes, sir, we----
    Mr. Mica. Yes, OK. All this money we are spending and we 
have the washout rate, and we can't fill the positions. We have 
plenty of schools that can teach these people if the FAA can 
get out of that business. And there is a role for Oklahoma 
City.
    When they come out of the colleges or the military air 
traffic control or something, they should be tested, they 
should be brought up to date on the very latest protocols, and 
then they should be dispersed to the vacancies, correct?
    Ms. Bristol. Yes.
    Mr. Mica. So we need to get FAA out of that business. They 
are not doing it right.
    Ms. Bristol. Right. We have embarked----
    Mr. Mica. If the----
    Ms. Bristol [continuing]. Upon----
    Mr. Mica. If the colleges and universities and schools that 
can do this, they will pay for it themselves. They come out--
see someone in the past behind Mr. Rinaldi that told me that 
excellent performance of those that come out of the schools 
with a full education. So if FAA can do its job in setting the 
protocols, the standards, the courses, and the certifications 
and get the hell out of the business, don't you think we can do 
a better job?
    Ms. Bristol. Sir, we have started that process. We----
    Mr. Mica. Where is the----
    Ms. Bristol. We have started a controller working group----
    Mr. Mica. Let's totally get out of it. It is nice, the 
legislation that is pending, but it doesn't solve the problem. 
The problem is basic, that the structure that we have is 
fundamentally flawed, OK?
    So we need to get out, Members. Listen to this, Members. 
Introduce legislation that changes the role of Oklahoma City 
and directs FAA to set the standards, the certification, and 
you can do checks on these people. There is a very small 
washout rate. They are better performers. They are better 
equipped in many ways to get on the job and fill those gaps.
    Anybody disagree with me? Mr. Rinaldi? You like it?
    Mr. Rinaldi. Do I disagree with you, sir?
    Mr. Mica. Yes.
    Mr. Rinaldi. I think that there is a fairness issue when a 
student goes into a college. I am paying for two college 
tuitions right now. If they are going into a college program to 
be specifically an air traffic controller, and then they come 
out and they have to take a biographical questionnaire or 
assessment----
    Mr. Mica. Well, to go back into that, I think you can 
recraft the role of Oklahoma City to test them, to make certain 
that they are competent, and to see where their skills best 
match the vacancies that we have in the system.
    But where--you know, there is an unfairness, yes. But right 
now the taxpayer is paying for a 30-percent washout rate to a 
system that doesn't get people on the job. So I think we need 
to transition again to a system that can produce them. And why 
should we be paying for this system of failure? It just goes on 
and on.
    So I have got to run to another function. But, Mr. Chairman 
and members of the committee, we need to reform this whole 
process. Anything less, you are just messing around.
    Mr. LoBiondo. Thank you. Mr. Larsen?
    Mr. Larsen. Thank you.
    Mr. Rinaldi, from all accounts the NATCA's workforce 
continues to help the FAA fulfill its mission in providing the 
safest and most efficient aerospace system in the world. Can 
you point to any safety lapses in the last year that you would 
associate with controller staffing levels?
    Mr. Rinaldi. No, sir. The controllers plug in to their 
position day in and day out to maintain, first and foremost, 
the safety of the National Airspace System. If they are working 
double positions combined up because staffing is short, then 
capacity will have to be appropriately reduced to make sure 
that they are not in a safety concern.
    Mr. Larsen. So the first option would be to reduce 
capacity, as opposed to trying to keep capacity levels the same 
if there is an issue in the staffing.
    Mr. Rinaldi. Absolutely.
    Mr. Larsen. Yes. Mr. Babbitt as well, apart from the 
service reductions associated with sequestration, can Southwest 
Airlines point to any other air traffic control-related delays 
or service reductions?
    Mr. Babbitt. Well, we certainly have our suspicions. We 
rely somewhat on anecdotal data or information, I guess----
    Mr. Larsen. Be sure to get right in the microphone there. 
Just--yes.
    Mr. Babbitt. We do have our suspicions. We don't have clear 
insight into a lot of the granular pieces when an air traffic 
control facility begins to increase spacing, things like that, 
ground stops; we don't necessarily know what the issue is 
within that station.
    We do know of a couple, though. A good example is the 
Chicago Center, which has a metering station that has been 
somewhat short-staffed. The problem for us is they have 
adjacent sector vectoring, so that aircraft coming out of 
Chicago Center going into the Minneapolis Center must follow a 
protocol. Well, if there is not staffing in either of those 
centers, it doesn't happen. And it is not happening.
    And what that leads to for us is increased vectoring, 
increased fuel burn, longer en route times. It is a delay. I 
mean we pay the financial penalty. We burn 2 billion gallons of 
fuel a year, and it is expensive. And so, any time we can 
reduce that and use the enhanced procedures, we welcome it. And 
those are the kinds of restrictions.
    Midway Tower itself has the same issue. They sometimes 
cannot staff a ground metering system that they use for lack of 
personnel in the tower. So it leads to us having increased 
tarmac times; you just sit longer on the ramp, burning fuel, 
delaying passengers. Not anything we look forward to.
    Mr. Larsen. OK. Thanks.
    Ms. Bristol, there is some criticism of the controller 
workforce plan staffing ranges as unreliable. Can you just 
enlighten me a little bit? When we are talking about the 
shortage, what--from your perspective, what is the baseline we 
are supposed to use? And in fairness, I am going to ask Mr. 
Rinaldi to comment on that same question, as well. What is the 
baseline?
    Ms. Bristol. Right. Well, you know, right now we are--we 
have got--in the entire system, 14,376 folks that are working 
their way through the process, from the early levels through 
the top. We are striving right now to get our certified 
professional controllers in a range that is in the 80- to 85-
percent rate, which we would feel is more healthy.
    And so, we are focused on, in facilities that are above 
that, helping them--if they desire to go to a facility that is 
below that level, help them get there more quickly, so that we 
can start getting everybody up to that range.
    Mr. Larsen. Yes. Mr. Rinaldi, how should we assess this?
    Mr. Rinaldi. So I would just say that the most accurate 
assessment of each facility is your onboard staffing of your 
fully certified professional controllers. These are the 
individuals that can plug in and work any position. These are 
the individuals that will train the other people in the 
building, that are learning to be air traffic controllers. 
These are the individuals that will fill in for supervisory 
functions and be controllers in charge. These are the 
individuals we take off the boards to actually help us 
modernize the system and develop real-time efficiencies in 
NextGen.
    That is the goal, is to actually measure that. What the 
controller workforce plan--it is just bodies in the building. 
And all too often they give you a number and it is misleading, 
at best. That--they said, ``Well, at Atlanta TRACON we have 95 
people on board,'' but really you only have--and if our CPC 
number is 100, and you have 95 people on board, you would 
think, well, we are OK, we are only 5 under. But really, you 
only have 68 people that can fully work all the positions, and 
those other people are in some form of training, which--their 
success rate in Atlanta is less than 40 percent.
    So you are counting people that will never be successful in 
the building, and it is almost a charade. They are just saying, 
``Well, we are fully staffed there,'' and the people will never 
certify there. So the number is flawed, is--if you go strictly 
by certified professional controllers is the best way to see 
the healthiness of a building.
    Mr. Larsen. Yes. Mr. Chairman, could I just have--ask the 
same question of Mr. Hampton? Is----
    Mr. LoBiondo. It is your birthday; whatever you want.
    Mr. Larsen. It is my birthday, great. I have got another 15 
minutes' worth of questions.
    [Laughter.]
    Mr. Larsen. One for every birthday.
    Matt, could you talk a little bit--what is--have you looked 
at the right number?
    Mr. Hampton. We don't know exactly what the right number 
is, but let me give you a different perspective. When we visit 
the field, we talk to the facility manager who runs the place 
day to day, and is responsible for running multiple shifts. And 
Mr. Rinaldi is quite correct, the certified controller is much 
like a utility infielder. He trains controllers and can work 
all segments of the airspace. So that gives a facility manager 
tremendous flexibility.
    I think it is important for the FAA to communicate to the 
Congress a specific number, particularly in the controller 
workforce plan. What is the right number at the right facility? 
Particularly at the critical facilities. We have looked at this 
for a number of years.
    So the CPC count is a very important number. That is our 
take on it. It matters to the facility manager, the guy that 
runs the facility, particularly at Chicago, Atlanta, and other 
most critical facilities.
    Mr. Larsen. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Rinaldi, at the roundtable we held in 
December you outlined some steps that you thought the FAA 
should take to improve the hiring and training and placement. 
Can you tell us any specific improvements in this area over the 
last 6 months?
    Mr. Rinaldi. So, after the roundtable hearing we had in 
December, the agency actually opened up the continuous bid for 
a couple months, which helped get streamlined certified--or 
military controllers into the system, and get them into--
directly into the facilities. And so that helped.
    What also helped is we have come to an agreement on what we 
call an ERR [employee requested reassignment] policy, which is 
basically a national release policy in moving controllers from 
mid-level and lower level facilities to the higher level 
facilities, where we have the shortage, in a very streamlined 
way so it is not 314 fiefdoms, but it is actually a very 
national overlook, and making sure that the system is staffed 
correctly and the facilities are getting the resources they 
need to do.
    So these are some steps we have taken. H.R. 5292 will give 
the agency the ability to continue to hire--maximize the 
academy and hire straight from the military and actually give 
the ability for the CTI students to get right into the academy 
also, and get that--and that is why we actually support the 
passage of H.R. 5292.
    Mr. LoBiondo. Ms. Bristol, I want to commend you and the 
team for the collaboration with Mr. Rinaldi and NATCA. It seems 
like that is going to be crucial and essential.
    But can you explain the difference between the staffing 
targets your team developed with NATCA and the recommended 
staffing ranges included in the FAA's annual controller 
workforce plan?
    Ms. Bristol. Yes. The annual controller workforce plan that 
is put out, it is a very high level--it is a strategic target. 
And it does give ranges, it gives a high and a low as an 
indicator of, you know, health, if you will, in a facility.
    When we look at managing facilities every day, and how we 
move our controllers through the system and inside the 
buildings, it was clear that we needed a much more tactical 
tool, and that is why we worked with NATCA to laser in on 
individual facilities and how we place and recognize there are 
also people moving through the facility at the same time as 
they become more proficient.
    So, the controller workforce plan, I think, serves a 
purpose. But for day-to-day management in the system, our 
organization works with that interim target on how we move and 
place people in the system.
    Mr. LoBiondo. Mr. Hampton or Mr. Rinaldi, care to comment?
    Mr. Rinaldi. The--as I said earlier, the controller 
workforce plan just gives you a headcount. What we did in our 
collaborative resource working group is actually laser in how 
many CPCs we want on the mission. And the mission is running 
air traffic control, actually getting recurrent training and 
mandatory briefing items, doing OJTI, doing CIC, helping 
modernization in the system.
    So we went with a CPAC number, and Ms. Bristol is correct, 
of actually--what is a good number to actually move somebody 
through the system? And we came with 85 percent CPC number. And 
that is why that number seems to be working for us.
    But if you just look--if you just went on the controller 
workforce plan, as I said, with Atlanta--but we could do it 
with Chicago, also--about 30 percent of the people in the 
building that come in as new developmentals become fully 
certified. Controller workforce--CPC target is 100. That is the 
number we came up with collaboratively.
    But you know, they would right now say that we are within 
range, because their range is from 81 to 100, or--and right now 
there are 83 people there, except for the fact there are only 
64 that could actually work position. The others are in some 
stage of training. But they are counting them as a full body. 
And if you were going to schedule that person to work a shift, 
you certainly would not schedule a group of those, you know, 20 
people that can't work by themselves all alone on a shift.
    So it is disingenuous to say they are OK, they have 84 
people on board. The workforce plan, to me, it just gives a 
false depiction of what is actually going on in a facility. The 
healthiness of a facility and the staffing of a facility goes 
right to the CPC number, and what accomplishes the mission of 
moving air traffic control safely throughout our system.
    Mr. Hampton. I think that is encouraging, that FAA and 
NATCA are working together. But I think it is important in the 
future that they clearly communicate to this committee and 
other committees what number they are measuring, particularly 
at the critical facilities. Are we measuring CPCs or are we 
measuring total controllers? I think that is an important 
distinction.
    So it is a positive step, but going forward, it is 
important to clarify what measurement we are using. And I do 
think as Mr. Rinaldi said, the CPC number is important and it 
is OK to express it in ranges. There is a level of precision 
that is not easy to get here.
    I think it is a positive development, but it is important, 
going forward, to see whether the next plan they put forward in 
2017 will reflect that. It will be important to communicate the 
health of a facility by that measurement in the future.
    Mr. LoBiondo. Thank you.
    Ms. Bristol, according to Mr. Rinaldi, controllers are 
working mandatory 6-day workweeks at TRACONs in Atlanta, 
Chicago, Dallas/Fort Worth, and New York. And according to your 
agency, controller overtime expenditures have jumped from $54 
million in 2011 to $78 million in 2015.
    Do you share our concern with the pressure being put on 
controllers, the safety and operational implications of 
increasing their workloads? And how long can this be kept up 
this way before we have some kind of a breaking point?
    Ms. Bristol. Well, thank you, Congressman. I think that is 
one of the priority reasons that we are so focused on moving 
our experienced controllers into some of our most critically 
staffing-challenged facilities.
    There are different levels of overtime in every facility. 
And, you know, hours can vary. You know, my--I do not like to 
see people working more overtime than they need to. And that is 
why it is a priority for me to ensure that we get bodies as 
quickly as possible in, and then move bodies to where they 
really need to be to support the workforce that is already 
there.
    Mr. LoBiondo. Mr. Hampton or Mr. Rinaldi, care to comment?
    Mr. Hampton. Overall, overtime nationwide is 2.6 percent. 
Most facility managers tell us if it is in the 4- to 6-percent 
range, it is manageable. However, at some of the critical 
facilities, overtime rates do exceed 10 percent.
    New York TRACON, almost 15 percent; Dallas TRACON, 12 
percent; Atlanta TRACON and Chicago TRACONs are 11 percent. So 
that shows a level of stress at a facility. It is questionable 
how long that can be sustained. It shows signs of staffing 
shortages.
    Mr. Rinaldi?
    Mr. Rinaldi. I would agree with the numbers the IG put out. 
Those are accurate, and it does--it is a--it does fatigue the 
workforce if you are working 6-day workweeks, 10-hour days, and 
maxing out on that. It is a high-stress occupation, and it is 
not something we should rely on as a normal part of our day-to-
day operation.
    Mr. LoBiondo. OK. Thank you. Now turn to Mr. Maloney.
    Mr. Maloney. Thank you, Mr. Chairman. And happy birthday to 
our colleague, Mr. Larsen, proof that the Aviation Subcommittee 
really is the secret to staying forever young.
    Mr. Rinaldi, I appreciate the kind words on the bipartisan 
legislation that my colleague, Mr. Curbelo, and I have 
introduced to address some of the issues you have been 
discussing this morning: H.R. 5292, known as the Air Traffic 
Control Hiring Improvement Act. You have done a better job in 
your testimony than I could of outlining some of the merits of 
the legislation, but I would love to ask you about a couple of 
issues that are covered by our bipartisan legislation, as I am 
sure my colleague, Mr. Curbelo, may, as well.
    And let me also say thank you to your members at NATCA for 
the extraordinary work they do day in and day out that ensure 
millions of us who travel every year--and every week, in many 
cases--arrive at our destinations safe and sound. So thank you 
for that, and thank you for your efforts in advancing my 
legislation.
    But let me focus you specifically on the new biographical 
assessment test conducted by FAA. Could you speak to some of 
the ways that this test has led to qualified controllers, 
including veterans, being rejected from potential ATC 
positions? I am not sure people fully understand this issue.
    Mr. Rinaldi. Well, thank you, sir, and thank you for your 
leadership on H.R. 5292. We do really appreciate it. We think 
it is the right piece of legislation to move forward to help us 
with the hiring.
    The biographical assessment was established to help cull a 
list, basically, of 28,000 applicants. And it took--it didn't 
take into account, regardless of any schooling you would have 
or any actual on-the-job function of being an air traffic 
controller you have been doing for years in the military or 
years in the FAA, and really just put everybody into one pool. 
And I don't know how they graded it. I do know some people that 
did take the test, they were just told if they passed or 
failed. Weren't told what they answered correctly or 
incorrectly, and it really seemed--it doesn't seem like a 
fairness issue.
    Like I started to say earlier, I pay for two college 
tuitions, and I would like to know if my child can actually do 
the job before I am actually paying for the college tuition, 
especially something as precise and specific as air traffic 
control. You can't come out of Embry-Riddle with an air traffic 
control degree and then fail a BQ. And there are not many other 
places you can turn to. So it is a fairness issue of allowing 
CTI students not to be lumped in with off-the-street.
    Same as military that are actually providing day-to-day air 
traffic control services in the military. To actually then put 
them and treat them and put them into the biographical 
questionnaire seems silly.
    Mr. Maloney. Thank you. And, if you would, also expound on 
how it unnecessarily restricts military and Department of 
Defense civilian controllers, and if that is contributing to 
the staffing crisis we have heard quite a bit about this 
morning and we are seeing in places like New York.
    Mr. Rinaldi. Well, it--to be an air traffic controller in 
large TRACONs is a very, very hard task. You really can't come 
out of the academy and make it into one of those busy 
facilities. The success rate is very, very low.
    Depending on what you are actually--your job function is in 
the military, if you are actually a tower controller, you are 
probably best suited to go into a tower environment in--near 
FAA. If you are a range controller, you are probably best to go 
into the academy and learn exactly air traffic control in 
civilian world.
    But really, what it comes down to for New York TRACON, 
Atlanta TRACON, Dallas TRACON, Chicago TRACON, and the other 
busy TRACONs, we need to move controllers through the mid-level 
facilities, and that is what the ERR process does do. It gives 
us the ability to place appropriately out of an academy into 
the lower level facilities, where you can develop and hone 
skills so that you can actually make it into the big leagues, 
very similar to a system--not to simplify it, but what we would 
do in the major leagues in baseball: A, AA, AAA, and then 
majors.
    Mr. Maloney. And in the time I have remaining, I would also 
appreciate it if you would just say a word about how allowing 
FAA to directly notice ATC vacancies to historically black 
colleges, Hispanic-serving institutions, and other minority-
serving institutions would help ensure that we are promoting a 
diverse workforce among air traffic controllers, while working 
on the staffing shortages.
    Mr. Rinaldi. Well, we truly believe in having a very 
diverse workforce. I think you get the best workforce if you 
reach from all areas of our community.
    What I think that--there is a way to do that with H.R. 
5292, because you can hire directly out of the military, which 
is very diverse. You can hire from the CTI students, and you 
could still do off-the-street hiring. You can have a three-way 
track to make sure you are making your mark at the FAA Academy 
each time. And you could use the BQ to cull a list of someone 
who has no experience.
    Mr. Maloney. Thank you very much.
    Mr. LoBiondo. Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman, and I 
would like to thank the witnesses for participating.
    I hear consistently and believe we have a shortage of air 
traffic controllers, yet it seems like we are putting up more 
and more barriers to entry there. I understand the issue of the 
cost associated with training someone. Is it also a 
difficulty--and I will ask Mr. Cannon this, I guess--is there a 
difficult with folks washing out or getting rid of bad apples, 
once they get in? Or not even--bad apples probably isn't the 
right word, but people who are not performing, or not able to 
move up through the farm team Mr. Rinaldi talked about.
    Mr. Cannon. Well, I will speak first to the academy, and 
then I think my colleague can speak once we get to the 
facility.
    Anyone going to the academy is on a temporary appointment, 
so they don't--they are not in the bargaining unit at that 
point, they have very limited appeal rights. So if they don't--
if they are not successful at the academy, both in classroom, 
indoor behavior, or conduct, they can be gotten rid of very, 
very quickly. And there are some that go that way.
    Mr. Farenthold. All right. Go ahead, ma'am.
    Ms. Bristol. No, I would love to see every trainee be 100 
percent successful and move, you know, through the academy and 
out and into our facilities and, again, you know, have that 
kind of a trajectory. We have a graduated process that we are 
working with, our students at the academy. And once they move 
into our facilities, again, we have got----
    Mr. Farenthold. I mean how difficult is it to get rid of 
somebody that isn't performing, once you have hired them? Is 
there a probation period?
    Ms. Bristol. Yes, I----
    Mr. Farenthold. Then after that----
    Ms. Bristol. I don't think it is. No, I don't think it is 
hard to get rid of someone. I think that----
    Mr. Farenthold. All right. So then, what is the--why, then, 
do we put these big barriers to entry, these tests and all? If 
somebody is able to perform through the academy and you are 
able to get rid of them if they aren't--why do we have these 
huge barriers to entry at the very beginning, especially for 
people who have already worked in the military or in contract 
towers and have some experience? It seems like you are shooting 
yourself in the foot meeting your hiring goals.
    Mr. Cannon. Well, sir, I take your point. And we certainly 
have not sought to put up barriers.
    After the 2014 announcement, we did look back at the 
initial process we put in place. It was always called the 
interim process. That is why we pulled the track 2 out. We did 
say let's not have people who already have experience have to 
go through a biographical assessment. And those people, when 
hired, can go direct to the facility.
    So we have incrementally tried to improve what we started 
since 2014, and I think we have made some improvements there.
    Mr. Farenthold. All right, thank you. And I am going to--
Mr. Babbitt, you have--came out of the FAA, you have worked in 
industry now. Let's assume President Obama or whoever the next 
President is reappoints you there. How do you fix this problem?
    Mr. Babbitt. Well, once we got past ``no''----
    [Laughter.]
    Mr. Babbitt. No, I would----
    Mr. Farenthold. I don't blame you, I wouldn't want to move 
out of Texas, either.
    Mr. Babbitt. Well, I appreciate the question. I think we 
were faced with a very similar situation in 2009. We had a mass 
of retirements, clearly had to ramp up and address the problem 
with increased training and a broader network, more focus on 
the CTI programs and so forth.
    I think today that one of the things when I look back in 
defense of the FAA would be, you know, stable funding. Do we 
know what we are going to do? Do we know precisely what our 
needs are? You can work the problem backwards; it is not high 
math.
    Mr. Farenthold. And that is an interesting question. Let me 
go back over to our folks from the FAA. Are we not paying these 
people enough? Is that the--is it--it doesn't look like we have 
a shortage of applicants. Are we not paying our air traffic 
controllers enough?
    Ms. Bristol. No, I think our controllers are very well 
compensated.
    Mr. Farenthold. All right. So is it age retirement and 
tough screening is why we have the--is what I am taking away as 
a general shortage.
    Let me just go back to Mr. Rinaldi. You are a union guy, 
you have been with the air traffic controllers for--I am going 
to promote you to FAA Administrator. What do you do?
    Mr. Rinaldi. Jump off a bridge.
    [Laughter.]
    Mr. Rinaldi. You know, I think that--I think H.R. 5292 is a 
good start. I think----
    Mr. Farenthold. No, that is us. What do you do as FAA 
Administrator under current law?
    Mr. Rinaldi. Well, I would do--you know, under current law 
I believe the Administrator could actually do H.R. 5292 and 
start hiring directly out of military, bypass CTI students that 
have a well-qualified or recommendation, they can move--but the 
problem is, being the FAA Administrator, you are governed by 
lots of lines of bureaucratic pressure, and passing H.R. 5292 
will give us--give him or her, whoever that might be, the 
ability to do these streamlined procedures to hire enough air 
traffic controllers.
    Mr. Farenthold. Or spinning them off into an outside 
entity.
    Anyway, I yield back the remainder of my time.
    Mr. LoBiondo. We are going to go to Ms. Johnson next, but 
just very quickly, Mr. Cannon, you are hearing a lot about 
this, but, you know, the CTI students, without any notice, 
without any ability to grandfather, in some cases spent tens of 
thousands of dollars to go through the system and just--the ax 
fell down, and that is it. And there--it just--there is not a 
good answer for that.
    Ms. Johnson?
    Ms. Johnson. Thank you very much, Mr. Chairman. And thanks 
to all of the witnesses for being here.
    As you know, the air traffic controller staffing shortages 
are impacting critical airports all across the United States, 
and especially those in the Dallas Metroplex that I have to fly 
out of on a weekly basis. A good example is the Dallas/Fort 
Worth International Airport has 42 fully certified controllers 
on staff, and this falls way below the minimum headcount target 
of 48 CPCs established by the controller workforce plan, which 
is updated by FAA on an annual basis.
    The Dallas/Fort Worth TRACON handles all arrivals and 
departures into and out of DFW, Dallas Love Field, and many 
other smaller airports in the Metroplex at 17,000 feet and 
below and at a radius of approximately 40 miles from DFW 
Airport.
    The DFW TRACON is also chronically understaffed, with only 
57 CPCs on staff, which is far below the target minimum of 78 
CPCs. Staffing at the Dallas Love Field is also dangerously 
close to the established minimum of 19, with only 20 fully 
certified on staff. Even if we consider the CPC targets 
established by the joint NATCA and FAA working group, which Mr. 
Rinaldi referred to in his testimony, the DFW and DFW TRACON 
both fall far short of the minimum standing targets, regardless 
of the standards used. This is a dangerous precedent, which I 
have mentioned earlier when you were here.
    My first question is, Ms. Bristol or Mr. Hampton--Ms. 
Bristol, you said in your testimony discussing support for 
facility-to-facility transfers, ``I believe such transfers can 
serve as a quick and viable alternative to finding certified 
controllers to fill in at facilities with the greatest need.'' 
Can either of you speak to some of the barriers preventing FAA 
from quickly moving staff from facilities above 90 percent of 
the facility-specific target for the CPCs? I have asked this 
question before, but I still don't have an answer. What actions 
are you taking to overcome these challenges? That's one.
    Retirement eligibility is another serious issue facing our 
traffic controllers. I have had a number of them come to me to 
ask me to recommend they be extended. Most are, but quite a 
few, especially those that are noisy, are never extended. 
According to the FAA's own estimates, almost one-quarter, or 24 
percent of the fully certified controllers nationwide, were 
eligible for retirement as of September 2015. And even more 
alarming is Mr. Hampton's statement that FAA does not 
sufficiently consider facility-specific information when trying 
to anticipate future retirement trends.
    I would like to know whether the reason for this is due to 
the lack of available data, or if the FAA has simply failed to 
act when facility managers would express these concerns.
    I know I have asked more than one question, but I would 
like an answer to all of them, especially what official steps 
has FAA taken to address any of the two issues that I brought 
up.
    Ms. Bristol. OK. Well, thank you, Congresswoman. The 
national team that my organization is working with, with NATCA, 
to place certified professional controllers into other 
facilities, our teams have met twice now and we have done two 
rounds of controllers that we can look to be moving. Some are 
shorter term, some are a little bit longer. We have got two 
selections that would go into Dallas/Fort Worth TRACON that you 
had mentioned. So that is certainly a high priority for us, is 
looking to expedite the movement of controllers where we can 
into the more challenged facilities.
    As far as the retirement eligibility, sometimes it is 
difficult. I mean we can estimate when controllers can retire. 
Certainly they have to go to their HR office to actually fill 
out the paperwork, and they are the only organizations, 
typically, that know for sure when. We know that controllers 
have to retire by the time they are 56. In some cases, 
especially in our critically challenged facilities, if we have 
controllers that want to work a little bit longer, we can grant 
waivers to do that, and it is not something that we do very 
often, but sometimes we do in those critically staffed places.
    So again, we are trying to expedite our processes, staying 
on top of the hiring, and go through the entire process with 
training. It is something that I am committed to, and I know 
that my colleagues in the FAA and NATCA, as well--it is one of 
our highest priorities.
    Ms. Johnson. What is your percentage of those that request 
to go beyond retirement?
    Ms. Bristol. It is actually pretty low. It is----
    Ms. Johnson. What is it?
    Ms. Bristol. I would have to get back to you. I don't have 
that number on the top of my head.
    Ms. Johnson. Anybody?
    Mr. Hampton. Ms. Johnson, yes, thank you for the question.
    On the first question on the transfer, since the roundtable 
when you raised the issue, FAA and NATCA have worked very well. 
We don't have the numbers, but FAA has begun taking action, and 
we will get back to you and we will watch very closely on how 
well the situation is working.
    Given the hiring situation, and the questions of how that 
will work, I think that is one of the most important approaches 
to address the critical facilities' staffing and CPC issues.
    You raise a very important question on the retirement 
issue. Overall, FAA has been fairly accurate on estimating 
retirements. But again, at some of the critical facilities like 
New York TRACON, 39 percent; Houston, 30 percent; 34 percent of 
their CPCs are eligible to retire. This calls for very careful 
monitoring. When these retirements happen, they can have a 
dramatic effect on a facility.
    So that is something that FAA has to watch, and I think it 
bears an important point that we made in our report, the need 
for working very closely with headquarters and the local 
facilities, particularly at the 23 critical facilities that we 
have reviewed over the years.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. LoBiondo. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I am very pleased we 
are holding this hearing today, because it is imperative that 
we address this looming shortage in air traffic controllers 
before it is too late. And I am very proud to cosponsor my 
friend, Mr. Curbelo's, bill that I will let him talk about more 
in detail, H.R. 5292, because it--but it makes a couple of 
commonsense changes to the air traffic control hiring process.
    One provision of that bill that I want to focus on that I 
believe will have an immediate impact is that it will raise the 
maximum entry age for experienced controllers, those with a 
minimum of 52 weeks of experience, from 31 to 35 years of age. 
Importantly, it will also promote the hiring of veterans, and 
many in minority communities.
    My question to the panel. You know, I am very frustrated by 
much of what has been discussed today. You look at Chicago 
TRACON that I fly in and out of on a regular basis. You know, 
the FAA can--the Chicago Center's agreed-upon number with the 
FAA for controller staff is, I believe, 321. As of today, there 
are 297 controllers at Chicago Center and it is projected by 
2018 that number will be under 250. I think the implications of 
this controller shortage can have a tremendous impact on 
safety. You know, we are all here to make sure the passengers 
get from point A to point B safely and come back.
    My question to the panel--and I will start with you, Mr. 
Rinaldi--is if another act of sabotage of what we saw in 
Chicago were to take place in the future, would there be enough 
resources and manpower left to keep air traffic moving and 
return the system to full capacity as soon as the repairs are 
made?
    Mr. Rinaldi. Well, thank you, sir. I certainly hope we 
never experience what we did in Chicago in September of 2014. 
We are down in our staffing numbers since 2014, and it would be 
a challenge to accomplish what we did back then.
    Mr. Davis. So, in your opinion, basically, the--much of the 
air traffic control system, if we were to see another act of 
sabotage like this would be much more difficult with the 
staffing levels that we have now to do what you did.
    Mr. Rinaldi. We worked very collaboratively with a lot of 
facilities and most of our facilities throughout the country 
were at a 27-year low in CPCs. Most of our facilities across 
the country are very short with certified professional 
controllers, so it would be a challenge to continue to keep the 
capacity that we did.
    Mr. Davis. Well, thank you. And thanks to all your members 
for getting traffic back to as normal as it can be.
    A common theme in today's hearing is that controller 
staffing problems just--they appear to be chronic. The FAA has 
missed its controller hiring targets in each of the last 6 
years. Controller staffing has fallen nearly 10 percent since 
2011. The FAA's bureaucratic structure is clearly failing us.
    In February, the committee passed the Aviation Innovation, 
Reform, and Reauthorization Act of 2016, which would separate 
ATC functions from the FAA and establish an independent not-
for-profit entity to provide air traffic control services, 
including the staffing, placement, and training of controllers.
    I would like Mr. Hampton, Mr. Rinaldi, and Mr. Babbitt to 
respond simply yes or no if they believe we would face these 
longstanding controller hiring and staffing problems if ATC 
services were provided by an independent, nongovernmental 
entity.
    Mr. Hampton?
    Mr. Hampton. Yes.
    Mr. Davis. Mr. Rinaldi?
    Mr. Rinaldi. No.
    Mr. Davis. Mr. Babbitt?
    Mr. Babbitt. No.
    Mr. Davis. Thank you. Yield back the balance of my time.
    Mr. LoBiondo. Mr. Carson?
    Mr. Carson. Thank you, Mr. Chairman. I would like to hear 
from everyone. What are your views regarding an additional 
physical barricade outside of the cockpit? I have heard 
proponents point out that this measure could be effective and 
not especially expensive, but we have also heard objections, as 
you know.
    So, I offered an amendment to add a secondary barrier to 
all U.S. passenger carriers manufactured going forward. What do 
you guys think of this idea, or concept?
    Ms. Bristol. Sir, my colleagues in aviation safety would 
probably be more up to speed and involved in that kind of a 
matter. I would have to defer to them, since they are the 
experts, and certainly have them circle back with you and your 
team.
    Mr. Carson. OK.
    Ms. Bristol. Thank you.
    Mr. Hampton. Thank you for the question. We are currently 
working on an audit concerning cockpit security and safety. We 
would be more than happy to brief you at another time in the 
subcommittee in a less open forum. I would feel more 
comfortable with that, sir. Is that OK?
    Mr. Carson. Thank you, thank you. Secondly, how does the 
explosion of drones into our national airspace factor into air 
traffic control staffing and management? Some have suggested 
that the possible use of geofencing or even other techniques to 
keep airport approaches and takeoffs safe and unimpeded by 
amateur drone operators--to keep them out of our airspace.
    But what is the safety plan to avoid drone accidents that 
could easily hurt people on the ground, or even interfere with 
other operations? And won't air traffic controllers be needed 
to keep drone operations safe? How do you guys see this being 
factored into our proposal today?
    Ms. Bristol. Well, our workforce has been dealing with 
drones for quite some time. We work closely with DOD 
[Department of Defense], DHS [Department of Homeland Security], 
other organizations for larger vehicles. The agency expects to 
pass a small UAS rule, as you know. And we will work in a very 
graduated manner on how we roll those vehicles into the 
National Airspace System.
    We are working closely with NATCA on this matter, as well. 
I want to ensure that my workforce is trained, that they have 
the proper resources, and so we have a lot of activity in this 
area. I would say that we are going to move in a graduated 
manner to ensure that we have a very safe system, as we do 
today. Thank you.
    Mr. Hampton. We specifically made a recommendation to FAA 
last year that controllers needed better training and 
information to deal with unmanned aircraft. FAA is taking steps 
to address our recommendation, and they are going to get back 
to us some time in September. That is an excellent point, and 
it will impact the controller workforce. It is reflected, and I 
think Mr. Rinaldi would agree with that.
    Mr. Rinaldi. Yes, integrating unmanned vehicles into our 
system is a big challenge. Obviously, controllers are going to 
need to identify and see them on the radar glass, going to need 
to know exactly what their mission is, and where they are going 
in route of flight, in order to continue to vector and keep 
airplanes separated from them so there is not a safety issue.
    Mr. Babbitt. From commercial airline operation, it is a 
pretty serious issue for us, as well. You have seen what a 2\1/
2\-pound goose can do to an airplane and an engine; you can 
imagine what a 50-pound drone will do to an aircraft engine.
    I think the bigger issue is the technology that we are 
going to have to refine, it is one thing to track and be aware 
of the unmanned aerial vehicle, but having it be controlled and 
responsive in the airspace is going to be key to ensuring that 
you can provide separation. It is one thing to watch it, but if 
we have no control over it, then that becomes the difference 
between being unmanned and uncontrolled.
    Mr. Carson. Thank you all.
    I yield back, Mr. Chairman.
    Mr. Davis [presiding]. Mr. Nolan is recognized for 5 
minutes.
    Mr. Nolan. Thank you, Mr. Chairman. I have a question, and 
perhaps Ms. Bristol, Mr. Cannon, Mr. Hampton, Mr. Rinaldi, I 
would like you all to consider it.
    I am perplexed, the way veterans are dealt with in this 
employment process. You have this shortage here. Unless my 
information is incorrect, there are approximately 10,000 
military air controllers working and operating and helping to 
manage our skies. And you know, your last application period 
for veterans to apply was described as long-term, and it was, 
like, for 3 months, March of--December--or, excuse me, December 
2015 to March of 2016.
    Number one question is why wouldn't you open that up for 
them all year long, since you have a shortage and you have all 
these experienced, seasoned people out there? So that would be 
question number one.
    And then help me understand. As I understand, is it correct 
that you--after age 31 you cannot apply, veteran or otherwise?
    Mr. Cannon. They have to have not turned 31 by the original 
appointment, yes.
    Mr. Nolan. Yes. So, you know, I remind you what Ralph Waldo 
Emerson once said about a foolish consistency. You know, why 
would you not consider a formula whereby 31, unless you had, 
you know, 1 year of successful experience and which you are 
going to be 32. If you had 5 years of successful operating 
experience, you know, it could be 36. If you had 10 years, it 
could be 41. It is not like they are--you know, just walked 
into the environment.
    Why are we not coming up with a better plan to utilize and 
create opportunities for these men and women who have served to 
protect and serve us, and they have obviously--if they 
performed well and have a good record of performance, why 
wouldn't we be looking for more ways to expand the period of 
opportunity for them to make that decision, to--which is a 
tough decision. They have already been in the military for some 
considerable amount of time. They are trying to decide, you 
know, ``Do I want to go for 20,'' or, ``Do I want to enter into 
the civilian?''
    There is an opportunity here to provide them with a longer 
term way to continue their service to the public, and it just 
doesn't seem to me that we are looking to create those 
opportunities that are just there, ready, prepared, 
experienced, seasoned. They know what they are doing, they have 
done it before. And here we have this shortage. Why can't we 
find some better ways to access that pool of talent of men and 
women who have served, and are ready to serve, and wanting to 
serve more in a civilian capacity?
    Mr. Cannon. Well, sir, I certainly agree with you and pay 
all respect to those who served this country.
    With regard to the age, I believe there is proposed 
legislation that would take that age up to 35. I don't think 
there is any disagreement because it would still allow 20-plus 
years on the back end for a full ATC retirement for those 
individuals.
    With regard to the announcement last December from which 
some 260 of those individuals who were selected--it was an open 
and continuous announcement. I think there is sometimes a 
misunderstanding when we say open and continuous. It doesn't 
mean it is open every day all the time. Because there still has 
to be some balance with how many people air traffic can then 
put into those facilities from those announcements. We are 
certainly working with our customer, air traffic, very close. 
And I expect we will have another one of those announcements 
out very, very, very soon.
    But from that last announcement, all those selections were 
the individuals that--I think both you and I both--260, and 
they are matriculating through the security and medical process 
right now. Those individuals, sir, are also capable of applying 
on the entry level announcement. They actually have two bites 
at the apple.
    So, if they don't get in or choose not to apply on the 
experienced announcement, they can apply under the entry level 
announcement, as well. So we provide two opportunities for them 
to come into the process.
    Mr. Nolan. Well, you know, I appreciate----
    Mr. Davis. The gentleman's time has expired.
    Mr. Nolan. I was going to--is my time expired?
    Mr. Davis. Yes.
    Mr. Nolan. Thank you.
    Mr. Davis. Mr. Curbelo is recognized for 5 minutes.
    Mr. Curbelo. Thank you, Mr. Chairman. And I am going to be 
very brief, because my colleague, Mr. Maloney, who joined me in 
filing H.R. 5292, asked a lot of the questions that I wanted to 
raise.
    But I will just say Mr. Rinaldi earlier described a 
situation in Atlanta which resembles a situation that we are 
experiencing in Miami. Of course Miami International Airport is 
the main economic driver in south Florida, and we have 91 
positions, but only 58 fully certified controllers. So exactly 
what Mr. Rinaldi explained in Atlanta, this is a crisis for us. 
And that is why Mr. Maloney and I came together to introduce 
H.R. 5292. We believe that it is going to give the FAA a clear 
mandate, clear direction to solve this hiring crisis once and 
for all.
    So I would just like to ask all of my colleagues who have 
not yet cosponsored the legislation, we are up to 122 
bipartisan cosponsors. If you are not on yet, get on. And I 
would like to ask our leadership in both chambers, here in the 
House on both sides, Republican and Democrat, to help us 
advance this legislation. Because if my colleagues think that 
this TSA line issue is a problem, if we don't get this right, 
this is going to become a much greater problem for our air 
transportation system in this country.
    So I want to thank Mr. Rinaldi for all his comments today 
in support of this legislation. I want to thank the chairman, 
the ranking member, for holding this very timely hearing on 
this matter.
    Thank you, Mr. Chairman. I yield back.
    Mr. Davis. Well, you are welcome, Mr. Curbelo. Thank you.
    I would like to take some time to ask a followup real 
quick. Mr. Hampton, I asked you to give a simple yes or a no on 
whether you think the ATC reform package would affect--how it 
would--or would it positively affect the hiring process. Can 
you expand on your answer of yes?
    Mr. Hampton. Thank you. This has been a longstanding issue 
at FAA, and I think it is a policy question. If the new entity 
was established, it would be a first priority for that entity 
to address the staffing challenges at the critical facilities.
    I would think an entity that was totally focused on air 
traffic would stand a much better chance of addressing it than 
the current structure.
    Mr. Davis. Thank you. Mr. Cannon, the pass rate at the FAA 
Academy was higher than 90 percent between 2005 and 2011, but 
dropped significantly since the controller hiring process was 
revised to 79 percent in 2014 and just 65 percent in 2015. Has 
the FAA determined the reasons why an increasing number of its 
controller candidates are not making the grade?
    Ms. Bristol. That would be mine, sir.
    Mr. Davis. Ms. Bristol, I apologize.
    Ms. Bristol. That is OK, thank you. I think it is still too 
soon to say, because it takes time for controllers to work 
through the entire training process. But I will say that at the 
academy we had some curriculum changes, as well, between the 
terminal and en route courses, and it had to do with the way we 
do our performance verification. We wanted to standardize it 
more so that we didn't see as many failures in the field.
    If a trainee can't make it through, we would rather see 
that happen earlier in the process than later in the process, 
because we continue to pay for that employee's development. So 
I think that is contributing, as well. And we don't see that 
necessarily as a bad thing. But completely? I don't think we 
have enough information yet to understand.
    Mr. Davis. Is there any nexus between the rising failure 
rates and the agency's revised hiring process, specifically the 
requirement that applicants with no ATC experience must pass a 
biographical assessment?
    Ms. Bristol. Again, I don't think we know for certain yet.
    Mr. Davis. Can you look into that matter----
    Ms. Bristol. Yes.
    Mr. Davis [continuing]. And report back to the 
subcommittee? All right, thank you.
    I now recognize Ms. Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. I would like to just 
follow up.
    Mr. Hampton, I wonder--your comment about focusing on the 
understaffing and this private entity, I wonder if your staff 
specifically researched whether in Canada or in Great Britain 
they have looked at the understaffing problem, or if they have 
explored understaffing in relation to people not wanting to go 
to these tough, expensive areas like we have heard is a problem 
in the U.S. Have you all specifically studied that?
    Mr. Hampton. No.
    Ms. Titus. OK, thank you. Now I have another question.
    [Laughter.]
    Ms. Titus. This question is directed to Ms. Bristol and Mr. 
Rinaldi. And it is related to staffing, but it is more about 
the equipment and the ongoing efforts by the FAA to modernize 
the control towers.
    Last week there was an article in the AP. It ran across the 
country and including in my district, in Las Vegas, and the 
article was entitled, ``Union: New Airport Towers Must be 
Remodeled Before Opening.'' In the article, Mr. Rinaldi, you 
specifically identified the new control tower in Las Vegas, 
saying it requires an overhaul before it can be operational.
    I reached out to our local controllers, our safety 
engineers, and the FAA because I am concerned that this overdue 
project is now going to have to be delayed even further, due to 
a failure by the FAA, and I am also worried that people around 
the country are going to read that there might be a problem 
flying in to Las Vegas and not want to come there, and we 
certainly can't have that.
    So, what I learned is that our controllers there were given 
a role and a responsibility in designing the system that is in 
place, and the tower in Las Vegas can operate with both the 
paper flight strips and an electronic system, once it is chosen 
to be put in place.
    Now, I know there is a prototype that is being tested, and 
I think it is in Cleveland and in Phoenix, and you all are 
going to make that decision this summer. There may be concerns 
about that electronic system, that prototype. But I would ask 
Mr. Rinaldi if maybe this got framed in the wrong light in that 
article--it has been known to happen--by the press. I want to 
be able to figure out what is happening with our tower and 
reassure our potential visitors.
    And then, Ms. Bristol, I would like to ask you to weigh in. 
I know we had a lot of problems with NextGen, but I want to 
know kind of what the plan is with these--this tower prototype, 
because I think your comment to the press was, ``Well, we will 
figure out what we need to do.'' That is not very reassuring.
    So could the two of you address that article and let me 
know what is going on?
    Mr. Rinaldi. Sure. Thank you, Congresswoman. I will go 
first. And as you can imagine, for someone who has been in the 
press as much as you, sometimes your statement gets twisted and 
misconstrued.
    We were talking--what I was talking about on the panel was 
two brand new facilities. Actually, we had an idea of bringing 
the prototype to those two facilities and be 100 percent 
electronic flight strip like the rest of the world is. But we 
have brand new facilities, and the prototype that we have been 
working in Phoenix and in Cleveland we have jointly made a 
decision that it is just not stable enough to bring into a new 
facility.
    I then went on to talk about San Francisco Tower that went 
with very small counter spaces because it is a smaller tower 
cab than Las Vegas, and that they would need bigger counter 
spaces to put printers in and strip bays in. Now, in Las Vegas 
they have made that accommodation. So really, it was about San 
Francisco Tower, which is coming on roughly the same time as 
Las Vegas Tower is, also.
    The challenge in Las Vegas Tower is that they did something 
very dynamic and we support tremendously, is actually put the 
controllers that will work the airplanes in the air a little 
higher, a few steps up, than the controllers working the ground 
view, so they can actually see straight down. So there is going 
to be a lot of movement with the controllers to hand strips 
back and forth, as opposed to being able to have an electronic 
flight strip program, where the controllers would never have to 
leave their position to move the control of that airplane.
    That is kind of what I was capturing. Yes, it did get lost 
in that. It is not going to delay the opening of Las Vegas 
Tower, but it is a challenge, that the workforce is going to 
have to move paper strips around, when we have this beautiful, 
brand-new facility, and we should have the most modern 
equipment. That is my biggest concern.
    Ms. Titus. So it is not going to be delayed, and it is not 
a problem of safety for people flying into Las Vegas.
    Mr. Rinaldi. It is not.
    Ms. Titus. OK, that is----
    Mr. Rinaldi. And I fly to Las Vegas a lot.
    Ms. Titus. OK, thank you.
    Ms. Bristol. And Congresswoman, that is why I answered that 
question that way. I never had any doubt that we would not be 
able to provide that capability. And so, we will make a 
determination if the prototype can come online at that 
facility. But regardless, it will not impact in the least, and 
certainly it is not a safety issue.
    At the same time, this month we expect to award the 
contract for the production system of that electronic flight 
strip capability. And so only a few facilities will have the 
prototype, and they will be the first ones to be replaced when 
we roll the production system out into the future.
    Ms. Titus. And are you listening to the air traffic 
controllers as you look at that prototype with any problems 
that they may have with it?
    Ms. Bristol. Yes, ma'am, we are.
    Mr. Rinaldi. We are working together on that.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Davis. Thank you. Mr. Rinaldi, I am shocked that you 
would think that sometimes statements get misconstrued in the 
media. Just shocked.
    Mr. Rinaldi. It is always the headline that seems to say 
something completely that you didn't say in the article.
    Mr. Davis. Well, we have--obviously, Dina and I have never 
had that happen.
    Mr. Rinaldi. Never, ever.
    Mr. Davis. Never.
    Mr. Rinaldi. Sure.
    Mr. Davis. Never. If there are no further questions, I 
would like to thank, once again, our participants for being 
here this morning. This has been a very informative hearing. We 
will continue to exercise vigorous oversight to ensure that our 
busiest ATC facilities are fully staffed with the most highly 
trained air traffic controllers in the world.
    Thank you all for being here today.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
                           [all]
                           
</pre></body></html>
